                                            UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE 

               AND THE BROADCASTING BOARD OF GOVERNORS

                               OFFICE OF INSPECTOR GENERAL


AUD-CG-IB-14-26                                  Office of Audits                                         June 2014




    Audit of the Broadcasting Board of

 Governors Administration and Oversight of 

           Acquisition Functions





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED

                                                              United State Department of State
                                                              and the Broadcasting Board of Governors

                                                              Office of Inspector General




                                            PREFACE

       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

       I express my appreciation to al l of those who contributed to the preparation of this report.




                                              Norman P. Brown
                                              Assistant Inspector General
                                               for Audits
                                   UNCLASSIFIED



Acronyms
ADA        Anti-Deficiency Act
BAM        Broadcasting Administrative Manual
BBG        Broadcasting Board of Governors
BPA        blanket purchase agreement
CCR        Central Contractor Registration
CO         contracting officer
CON        Office of Contracts
COR        contracting officer’s representative
DUNS       Data Universal Numbering System
EPLS       Excluded Parties List System
FAC-C      Federal Acquisition Certification in Contracting
FAC-COR    Federal Acquisition Certification for Contracting Officer’s Representatives
FAR        Federal Acquisition Regulation
FBO        FedBizOpps.gov
GAO        Government Accountability Office
IBB        International Broadcasting Bureau
JOFOC      Justification for Other Than Full and Open Competition
OCB        Office of Cuba Broadcasting
OIG        Office of Inspector General
OMB        Office of Management and Budget
POV        Purchase Order Vendors
PSC        personal services contract
SOW        Statement of Work
SPE        Senior Procurement Executive
USC        United States Code
VOA        Voice of America




                                   UNCLASSIFIED

                                                               UNCLASSIFIED



                                                            Table of Contents

Section                                                                                                                                                Page


Executive Summary ............................................................................................................................... 1


Background             ....................................................................................................................................... 3

Objective              ....................................................................................................................................... 7

Audit Results ....................................................................................................................................... 7
       Finding A. Matters for Board of Governors Action ................................................................. 8
       Finding B. Inappropriate Use of Personal Services Contracts Resulted in
                     Reportable Violations of the Anti-Deficiency Act............................................... 10
       Finding C. Practice of Contract Pre-Approval Resulted in Reportable
                     Violations of the Anti-Deficiency Act ................................................................. 18
       Finding D. Pre-Solicitation Practices Did Not Comply With the Federal Acquisition
                     Regulation............................................................................................................. 25
       Finding E. Competition Practices Did Not Comply With the Competition in
                     Contracting Act or the Federal Acquisition Regulation....................................... 29
       Finding F. Contract Pricing Determinations Did Not Comply With the Federal
                    Acquisition Regulation ......................................................................................... 38
       Finding G. Contractor Responsibility Determinations Did Not Comply With
                     the Federal Acquisition Regulation ...................................................................... 43
       Finding H. Contract Administration Practices Did Not Comply With the Federal
                     Acquisition Regulation ......................................................................................... 48
       Finding I. Contracting Officers and Contracting Officer’s Representatives
                     Did Not Receive Required Training ..................................................................... 58
       Finding J. Contract File Maintenance Practices Did Not Comply With the
                     Federal Acquisition Regulation ........................................................................... 62
       Finding K. Contracting Officers Exceeded Delegated Authority........................................... 65

List of Recommendations .................................................................................................................... 68


Appendices
      A. Scope and Methodology .................................................................................................... 73

      B. 	Analysis of Services Contracts .......................................................................................... 79

      C. 	Federal and Broadcasting Board of Governors Regulations Governing Obligating or
          Expending Federal Funds .................................................................................................. 81
      D. O	 ffice of Inspector General Outline for Action................................................................. 84

      E. 	Broadcasting Board of Governors First Response to Outline for Action .......................... 88

      F. 	Broadcasting Board of Governors Second Response to Outline for Action ...................... 89

      G. Broa
          	     dcasting Board of Governors Third Response to Outline for Action ........................ 92

      H. Broa
          	     dcasting Board of Governors Fourth Response to Outline for Action....................... 98

       I. Broadcasting Board of Governors Response to Draft Report .......................................... 100


Major Contributors to This Report..................................................................................................... 116





                                                               UNCLASSIFIED

                                            UNCLASSIFIED


                                        Executive Summary
         The Broadcasting Board of Governors (BBG) is an independent Federal agency that
oversees all U.S. Government-supported, civilian international broadcasting. Its mission is to
inform, engage, and connect people around the world in support of freedom and democracy.
BBG reaches a worldwide audience of more than 175 million in 59 languages via radio,
television, and the Internet. The BBG Office of Contracts (CON), within the International
Broadcasting Bureau (IBB), is responsible for the planning, management, and implementation of
all acquisition efforts, including the procurement of supplies, services, and construction for the
IBB, Voice of America (VOA), and Office of Cuba Broadcasting (OCB). 1

        The Office of Inspector General (OIG) conducted an audit of BBG’s acquisition
functions to evaluate whether BBG had adequate acquisition policies and procedures and to
assess the efficacy of those policies and procedures. The primary objective of this audit was to
determine whether BBG was in compliance with Federal regulations for conducting selected
acquisition functions in support of the BBG mission.

        OIG notified BBG that it had reportable violations of the Anti-Deficiency Act (ADA).
First, BBG awarded contracts that were personal in nature, resulting in BBG exceeding its
statutory authority to award personal services contracts (PSC). Second, BBG’s use of contract
pre-approval allowed contractors to work without having valid contracts or secured funding in
place, resulting in reportable violations of two provisions of the ADA. The use of contract pre­
approval also resulted in $431,502 of funding that was not certified prior to the start of the
contractor’s period of performance, $51,140 of which was not available when the contractor
began performance. 2

        OIG found a number of additional areas in which BBG had not complied with Federal
regulations related to procurement. Specifically, we found that BBG had not adequately
complied with pre-solicitation requirements, namely acquisition planning and market research.
BBG also did not adequately promote full and open competition when soliciting for offers or
awarding contracts, did not adequately determine that contract prices were fair and reasonable,
and did not perform contractor responsibility determinations. We also determined that BBG
acquisitions reflected little or no competition largely because program offices, rather than CON,
controlled the acquisition process. As a result, BBG did not have reasonable assurance that its
needs were met in the most effective, economical, and timely manner. In addition, OIG
identified $419,020 in funds that could have been put to better use in relation to contracts that
were never executed, possibly because of lack of planning, and $3.5 million in questioned costs
because of unsupported contract pricing.




1
  IBB provides day-to-day management of agency operations, including VOA and OCB, which are international

broadcasting institutions working under the umbrella of BBG.

2
  See Finding C for a complete discussion of this topic.


                                                      1

                                            UNCLASSIFIED
                                              UNCLASSIFIED


       OIG also identified a number of issues regarding contract administration and oversight.
Specifically, we found that BBG did not have updated policies and procedures to ensure that:
    •   contracting officer’s representatives (COR) were appropriately designated
    •   quality-assurance procedures were documented and performed
    •   contractors were not assigned to oversee contracts
    •   evaluations of contractor performance were performed, when required

In addition, contracting officers (CO) and CORs did not meet statutory training requirements.
We also found that BBG did not have updated policies and procedures or proper internal controls
to ensure that COs appropriately maintained contract files or always executed contracts within
their delegated warrant authorities. Without adequate policies and procedures or appropriate
controls, BBG did not comply with Federal Acquisition Regulation (FAR) requirements and had
no reasonable assurance that contract funds were spent appropriately, increasing the risk of
fraud, waste, and abuse. In addition, OIG identified $24,325 in questioned costs attributable to a
lack of contract oversight and $475,347 in unauthorized commitments.

       Based on the systemic nature of the FAR noncompliance, coupled with the discovery of
ADA violations and multiple internal control deficiencies, OIG made two principal
recommendations to the Board of Governors: develop an action plan with measurable goals and
milestones and develop and implement enforcement mechanisms to assist in ensuring enhanced
accountability for compliance with procurement regulations.

        OIG also made 36 recommendations to improve BBG’s acquisition functions and ensure
compliance with Federal regulations, 20 of which address the development and implementation
of policies and procedures for the pre-award, award, and administration stages of the contract
lifecycle. We also recommended that BBG develop and implement fund control regulations and
adhere to its requirements for hiring PSCs. Finally, we recommended that BBG cease the
practice of pre-approval and use of quarterly sources sought 3 notices and that it provide
enhanced training to staff and implement various internal controls.

        OIG provided BBG a draft of this report on April 14, 2014. In its April 29, 2014,
response (see Appendix I) to the draft report, BBG concurred with 37 of the recommendations
and partially concurred with one recommendation. Based on management’s response and OIG’s
receipt of supporting documentation, OIG considers Recommendations 13, 21, and 31 closed,
and no further action is required for these recommendations. Although BBG concurred with
Recommendation 26, OIG considers this recommendation unresolved because BBG had not yet
made a determination on whether the identified costs were allowable. This recommendation can
be resolved and subsequently closed when BBG makes a determination and provides
documentation showing that the recommendation has been fully implemented. OIG considers
the remaining 34 recommendations resolved, pending further action. Each of these
3
 FedBizOpps states that “the Sources Sought notice is a synopsis posted by a government agency that states they are
seeking possible sources for a project. It is not a solicitation for work, nor is it a request for proposal.”

                                                        2

                                              UNCLASSIFIED
                                       UNCLASSIFIED


recommendations will remain open until documentation is provided showing that they have been
fully implemented. Management’s responses to the recommendations and OIG’s replies to those
responses are presented after each recommendation.

                                         Background
Broadcasting Board of Governors

        The BBG is an independent Federal agency that oversees all U.S. Government-supported,
civilian international broadcasting. The BBG administers nonmilitary international broadcasting
funded by the U.S. Government in accordance with the U.S. International Broadcasting Act of
1994, as amended. 4 Its mission is to inform, engage, and connect people around the world in
support of freedom and democracy by reaching a worldwide audience of more than 175 million
in 59 languages via radio, television, and the Internet. The Board of Governors that oversees
BBG is a nine-member bipartisan body, including eight private citizens appointed by the
President and the Secretary of State (ex officio). The Board sets the priorities and the overall
strategic direction of U.S. international broadcasting, allocates resources, manages relationships
with the other executive branch agencies and Congress, reviews and evaluates the effectiveness
of the broadcast language services, and safeguards journalistic integrity. Chart 1 reflects the
BBG organizational structure as of December 18, 2013.




4
    Title III of Public Law 103-236.

                                                3

                                       UNCLASSIFIED
                                            UNCLASSIFIED



Chart 1. BBG Organization Chart




Source: OIG generated using a Broadcasting Board of Governors Resolution dated December 18, 2013.

International Broadcasting Bureau and Office of Contracts

        The IBB supports the day-to-day operations of the VOA and the OCB, as well as BBG’s
three grantees, 5 and provides transmission and distribution of services and technical support for
all broadcasting services. Each entity within the IBB includes language services, which are
offices that produce content such as radio and television programs for particular languages and
regions. During the scope of the audit, the IBB Director, who was appointed by the President,
operated as an extension of BBG in its oversight of U.S. international broadcasting. However,
on December 18, 2013, the Board implemented a reorganization through the issuance of the
Resolution To Create an Interim Agency Management Structure, replacing the former IBB
Director with three management officers until a Chief Executive Officer is selected. The Board
appointed a Director of Global Operations, Director of Global Strategy, and Director of Global
Communications, who together provide oversight and direction of the BBG. As depicted in
Chart 1, the IBB comprises 12 administrative, marketing, and technical offices, including CON.
CON falls under the purview of the Director of Global Operations, and the IBB Chief of Staff,
and is overseen by a Director who is also the Senior Procurement Executive (SPE). CON is

5
 The BBG provides funding and other services to three grantees—Radio Free Europe/Radio Liberty, Radio Free
Asia, and the Middle East Broadcasting Network.

                                                      4

                                            UNCLASSIFIED
                                              UNCLASSIFIED

responsible for the planning, management, and implementation of all acquisition efforts in
support of the global broadcasting network and other broadcasting support operations, including
the procurement of supplies, services, and construction. As shown in Table 1, IBB’s annual
funding for fiscal years 2011–2013 ranged from $499 million to $507 million.

Table 1. International Broadcasting Operations Funding by Year ($ in thousands)
                                                       2011 Actual         2012 Actual        2013 Enacted
    International Broadcasting Operations
        International Broadcasting Bureau                   $ 265,326          $ 263,096            $ 270,301
        Voice of America                                      205,104            207,376              208,045
        Office of Cuba Broadcasting                            28,416             27,977               28,266
    Grand Total                                             $ 498,846          $ 498,449            $ 506,612
Source: Broadcasting Board of Governors FY 2013 and FY 2014 Budget Request. 6

Federal Regulations and BBG Acquisition Policies

        Most Federal acquisitions, including those within BBG, are regulated by the FAR. The
FAR establishes uniform policies and procedures for acquisition by all executive agencies. BBG
has one all-encompassing internal policy titled, “Manual of Operations and Administration,”
better known as the Broadcasting Administrative Manual (BAM), 7 which is designed to provide
all IBB employees with an authoritative source of information on the policies and procedures of
broadcasting. Specific to acquisitions, Part IX of the BAM, “Procurement,” implements and
supplements the FAR, Federal statutes, and directives of regulatory agencies to guide CON’s
acquisition functions. BBG’s “Contracting for Talent & Other Professional Services Handbook”
(POV Handbook), dated 2010, is intended to provide the authoritative source of current
information and procedures for acquiring and using nonpersonal services contractors, which
BBG refers to as Purchase Order Vendors (POV). CON also intermittently issues memoranda
regarding acquisition-related policies and procedures that are not addressed in the BAM or POV
Handbook.

BBG Acquisition Funding

       BBG funds programs through contracts, grants, 8 and interagency agreements. 9 BBG
contracts directly with individuals for talent and other professional services, including writers,

6
  Broadcasting Board of Governors FY 2013 and FY 2014 Budget Requests, http://www.bbg.gov/about-the­
agency/research-reports/budget-submissions/, accessed June 4, 2013.
7
  The BAM is not dated; however, according to a BBG official, the procurement section was initially developed in
1996.
8
  7 BAM 600, “Grants and Other Financial Assistance,” defines a grant agreement as “a standardized legally binding
agreement used to provide financial assistance by the BBG to a grantee.” BBG provides funding to three grantees to
carry out broadcasting services.
9
  2 BAM 510, “Interagency Agreements,” defines interagency agreements as “agreements between Broadcasting and
other departments and agencies of the U.S. Government.” For example, the Department of State and the United
States Agency for International Development provide funding to BBG for various language service programs
through interagency agreements.

                                                        5

                                              UNCLASSIFIED
                                                UNCLASSIFIED

stringers, 10 announcers, and translators. BBG awards contracts primarily under the simplified
acquisition threshold of $150,000, 11 and OIG determined that the average dollar value of an
acquisition between FY 2011 and FY 2013 was $18,441. Table 2 summarizes the estimated total
dollar amount of acquisitions during fiscal years 2011–2013, as well as the average dollar value
of each acquisition.

Table 2. Summary of BBG Acquisition Actions
                                  FY 2011              FY 2012                FY 2013                   Total

 Total Dollar Amount*           $ 103,130,531         $ 153,148,993          $ 143,838,838            $ 400,118,362
 Average Dollar Value                $ 15,635              $ 21,640               $ 18,048                 $ 18,441
Source: OIG generated based on contract data obtained from USASpending.gov.

*The total dollar amount does not include negative contract actions, such as de-obligations, terminations, and

negative modifications.


Stages of the Acquisition Process

        In general, there are four stages within the acquisition process. The first is the pre­
solicitation phase, during which the CO and/or COR develop the acquisition plan, conduct
market research, develop contract specifications, and ultimately prepare the solicitation. In the
second, or pre-award, phase of the acquisition process, the CO selects a proposal submitted in
response to the solicitation through an evaluation and ranking process. During this phase,
negotiations may take place, after which the award document is prepared. The third phase,
contract administration, involves activities performed after a contract has been awarded to
determine how well the contractor performed to meet the requirements of the contract. These
include voucher review and processing, assurance of performance, and contract modifications
and terminations for cause or convenience, if necessary. The fourth phase, contract closeout,
begins when all services have been performed and products delivered. A contract is properly
closed out when all administrative actions have been completed, disputes have been settled, and
final payments have been made.

OIG Outline for Action

        On September 26, 2013, we issued OIG Outline for Action: Management Attention
Needed To Improve Broadcasting Board of Governors Acquisition Functions 12 (see Appendix D),
in order to alert BBG and Congress to our preliminary findings of significant FAR
noncompliance and violations of the ADA. The Outline for Action provided a high-level
summary of the issues we identified, which are extensively detailed in the contents of this report.
We recommended that BBG cease the use of PSCs beyond what it is statutorily authorized to
10
   A stringer is a freelance journalist who contributes reports to a news organization on an ongoing basis but is paid 

individually for each piece of broadcast work.

11
   FAR Part 13, “Simplified Acquisition Procedures,” prescribes simplified acquisition procedures for those

acquisitions under the simplified acquisition threshold of $150,000. The purpose of the simplified procedures is to 

reduce costs, promote efficiency, and avoid burdens.

12
   AUD-CG-IB-13-43, September 2013.


                                                           6

                                                UNCLASSIFIED
                                       UNCLASSIFIED


hire to avoid an ADA violation (Recommendation 1), cease the practice of “pre-approval” for
contractors to continue working until funding is secured and a contract is executed to avoid an
ADA violation (Recommendation 2), and hire an expert to evaluate the BBG CON
(Recommendation 3).

        For Recommendation 1, BBG stated in its fifth response to the Outline for Action, dated
April 29, 2014 (see Appendix I, Enclosure 1 of BBG’s response to the draft report), that its view,
“as a matter of law,” was that it had not exceeded its authority regarding PSCs, resulting in no
reportable violation of the ADA. BBG also stated, however, that it would transition away from
the use of the contracting vehicle in question and would instead contract its PSCs through one or
more staffing agencies. BBG further stated that it would seek authority from Congress to
employ up to “700 United States citizens or aliens” as PSCs. (For additional information on this
issue, see Finding B.) In this same response, BBG concurred with Recommendation 2 to cease
the practice of contract “pre-approval” and stated that it was conducting an internal review of
contracts “to conclude whether or not there was a commitment in excess of an allotment.” If this
condition is found, BBG stated that it would report on those ADA violations accordingly. (For
additional information on this issue, see Finding C.) Finally, BBG concurred with
Recommendation 3 to hire an outside expert in its second response to OIG’s Outline for Action,
dated October 28, 2013 (see Appendix F).

       OIG considers Recommendation 1 unresolved and Recommendations 2 and 3 resolved,
pending further action. The audit resolution process for these three recommendations will
continue to be handled via a separate audit compliance process, and unresolved
recommendations will continue to be reported in OIG’s semiannual reports, as required.

                                           Objective
       The primary objective of this audit was to determine whether BBG was in compliance
with Federal regulations for conducting selected acquisition functions in support of the BBG
mission. Specifically, OIG assessed BBG’s compliance with the requirements for acquisition
planning, market research, competition, contract pricing, contractor responsibility
determinations, contract administration, training, contract file maintenance, use of personal
services contractors and contract funding. (The scope and methodology of the audit are detailed
in Appendix A.)

                                        Audit Results

        OIG found that BBG was not in compliance with Federal regulations for conducting
selected acquisition functions, including contract oversight, in support of the BBG mission.
Specifically, OIG determined that the FAR was not followed during the pre-solicitation, pre­
award, and contract administration phases of the acquisition process. Noncompliance included
not adequately performing acquisition planning, market research, full and open competition,
contract pricing, and contractor responsibility determinations. In addition, BBG did not provide
adequate oversight of the acquisition process, evidenced by a failure to designate CORs, weak

                                                7

                                       UNCLASSIFIED
                                       UNCLASSIFIED


quality assurance procedures, a lack of performance evaluations, and the allowance of
contractors to perform inherently governmental functions. Further, BBG was not in compliance
with regulations for training COs and CORs and did not adequately maintain contract files.
Finally, OIG identified two practices that resulted in reportable BBG ADA violations.
Specifically, BBG entered into PSCs exceeding its statutory authority, and contractors regularly
worked without valid contracts in place.

Finding A. Matters for Board of Governors Action
        OIG determined that there was a systemic failure of BBG’s acquisition function based on
the discovery of significant FAR noncompliance, ADA violations, and multiple internal control
deficiencies identified during the audit. Specifically, OIG found the following during our review
of 34 contracts:

   •	 PSCs were routinely awarded above BBG’s legislative limitation.
   •	 Contractor services were regularly accepted without contracts in place, and, in a few
      instances, funding was not available when performance began.
   •	 There was little evidence that acquisition planning had occurred.
   •	 The acquisition process often lacked competition, and, in many instances, contractors
      were preselected by program offices without CO input.
   •	 Contract prices were rarely based on fair or reasonable rates, and, in many instances,
      were predetermined by program offices without CO input.
   •	 COs were sometimes pressured by senior officials to award contracts that they knew were
      not in accordance with the FAR.
   •	 COs did not perform contractor responsibility determinations for prospective contractors,
      including foreign contractors, prior to their receipt of Federal funds.
   •	 There was limited to no evidence that contract oversight was performed.
   •	 Selected contracting officials had limited training and some signed documents that were
      not in accordance with Federal procurement regulations.

        Systemic failures occurred for a number of reasons, including but not limited to the
absence of leadership within BBG to promote an effective procurement process, a lack of
accountability for noncompliance with Federal regulations, and an environment in which some
contracting officials were not able and/or willing to award contracts in accordance with Federal
regulations. Collectively, these findings indicate that BBG is at extreme risk for fraud, waste,
and abuse within its acquisition function, as well as the potential for conflicts of interest.
Additionally, without policies or procedures or a mechanism to ensure that accountability is
present within the procurement system, some COs continued to award contracts while ignoring
Federal regulations. Because of the egregious nature of these audit findings, OIG recommends
that the Board of Governors ensure that an action plan is developed and implemented to remedy

                                                8

                                       UNCLASSIFIED
                                        UNCLASSIFIED


the vulnerable process, that milestones are established, and that progress on the plan is tracked.
In addition, an enforcement mechanism should be developed and implemented to ensure that
those responsible for violations of the procurement regulations are held accountable.

       Recommendation 1. OIG recommends that the Board of Governors develop an action
       plan to implement and track a restructuring of the acquisition process within the
       International Broadcasting Bureau to ensure that all procurements comply with Federal
       and agency procurement policies. The action plan must have measurable goals and
       milestones.

       Management Response: The Board of Governors concurred with the recommendation,
       stating that it had “contracted with an outside expert to create a corrective action plan to
       improve the agency’s acquisition processes including, but not limited to complying with
       all applicable Federal law and regulations” and that “BBG’s action plan will include
       measurable goals and milestones.” The Board further stated that it had “tasked a
       management working group to develop a new contracting structure for the agency.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that an action plan to
       implement and track a restructuring of the acquisition process, with measurable goals and
       milestones, has been developed.

       Recommendation 2. OIG recommends that the Board of Governors develop and
       implement enforcement mechanisms to ensure accountability for compliance with the
       action plan developed in response to Recommendation 1. This must include regular
       monitoring and evaluation of the acquisition function and compliance with the action
       plan.

       Management Response: The Board of Governors concurred with the recommendation,
       stating that it will “define a reporting protocol with the[ir] Interim Management Team to
       monitor and evaluate compliance with the corrective action plan.” The Board also stated
       that it “will define enforcement mechanisms to ensure accountability and compliance” to
       “include a requirement that progress be tracked through monthly updates to the Board’s
       Advisory Committee.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that enforcement
       mechanisms, including regular monitoring and evaluation with the acquisition function
       and compliance with the action plan, have been developed and implemented.




                                                 9

                                        UNCLASSIFIED
                                              UNCLASSIFIED



Finding B. Inappropriate Use of Personal Services Contracts Resulted in
Reportable Violations of the Anti-Deficiency Act
        OIG determined that BBG had routinely exceeded its statutory authority to enter into
PSCs. FAR 37.104(b) prohibits the use of PSCs without explicit statutory authority. BBG does
have statutory authority to enter into PSCs, 13 but the statute limits this authority to 60 PSCs.
Based on an estimate provided by an agency official, BBG awarded approximately 660 services
contracts that may have been personal in nature, 44 of which, according to BBG officials, were
appropriately classified as PSCs. Therefore, the overwhelming majority of the remaining service
contracts may have been inappropriately defined as nonpersonal services contracts or not defined
at all. There are likely multiple underlying reasons behind the inappropriate use of PSCs.
According to agency officials, the excessive use of services contracts occurred because they did
not have the authorization to fill full-time employee positions and because contracting officials
may not have been fully aware of or properly trained on the definition and proper
implementation of statutory limitations. As a result, BBG violated the ADA, which prohibits
“employ[ing] personal services exceeding that authorized by law.”

Personal Services Contracts

       A PSC is defined in FAR 2.101 as “a contract that, by its express terms or as
administered, makes the contractor personnel appear to be, in effect, Government employees.”
FAR 37.104(a) further states that “a personal services contract is characterized by the employer-
employee relationship it creates between the Government and the contractor’s personnel. The
Government is normally required to obtain its employees by direct hire under competitive
appointment or other procedures required by the civil service laws. Obtaining personal services
by contract, rather than by direct hire, circumvents those laws unless Congress has specifically
authorized acquisition of the services by contract.” FAR 37.104(c)(1) states that the employer-
employee relationship under a services contract occurs when, as a result of “the manner of its
administration during performance, contractor personnel are subject to the relatively continuous
supervision and control of a Government employee.”

      Additionally, FAR 37.104(d) identifies six factors that provide guidance in assessing
whether a proposed contract is personal in nature:
     1.	 Performance on site.
     2.	 Principal tools and equipment furnished by the Government.
     3.	 Services are applied directly to the integral effort of agencies or an organizational subpart
         in furtherance of assigned function or mission.
     4.	 Comparable services, meeting comparable needs, are performed in the same or similar
         agencies using civil service personnel.

13
  P.L. 107-228 § 504, Foreign Relations Authorization Act, Fiscal Year 2003, “Personal Services Contracting Pilot
Program,” Sept. 30, 2002, 116 Stat. 1393 (22 U.S.C. 6206 note).

                                                       10

                                              UNCLASSIFIED
                                               UNCLASSIFIED


     5.	 The need for the type of service provided can reasonably be expected to last beyond 1
         year.
     6.	 The inherent nature of the service, or the manner in which it is provided, reasonably
         requires directly or indirectly, Government direction or supervision of contractor
         employees in order to—
             o	   Adequately protect the Government’s interest;
             o	   Retain control of the function involved; or
             o	   Retain full personal responsibility for the function supported in a duly authorized
                  Federal officer or employee.

Finally, FAR 37.104(b) expressly prohibits agencies from awarding PSCs unless specifically
authorized by statute to do so.

Statutory Authority for Limited Number of Personal Services Contracts

        In 2002, the Personal Services Contracting Pilot Program was enacted to provide the
Director of the IBB with the authority to “establish a pilot program for the purpose of hiring
United States citizens or aliens as personal services contractors, without regard to Civil Service
and classification laws, for service in the United States as broadcasters and other broadcasting
specialists in the [IBB] to respond to new or emerging broadcast needs or to augment broadcast
services,” through December 31, 2005. 14 The statute includes four conditions that must be
followed in order for BBG to utilize PSCs. For instance, no more than 60 U.S. citizens or aliens
can be employed at any one time as a PSC. This provision was extended each year via
appropriations bills or continuing resolutions, keeping the authority in effect through September
30, 2014.

Evaluation of BBG’s Use of Personal Services Contracts

       In order to determine whether BBG was appropriately utilizing PSCs, and ultimately
applying its statutory authority correctly, OIG employed the following analytical techniques,
which led to the following determinations.

Determination that Services Contracts Were Personal in Nature

        OIG first had to determine whether contracts were appropriately labeled and administered
as personal or nonpersonal services contracts. We selected and reviewed 23 services contracts 15
and found that 13 were labeled as nonpersonal services contracts, 5 were identified as PSCs,
2 were identified both as a PSC and a nonpersonal services contract, 16 and 3 had no indication of
14
   Ibid. Contracts made prior to December 31, 2005, could remain in effect for an additional six months.

15
   The sample of 34 contracts selected for testing included 18 services contracts (16 nonpersonal services contracts

and 2 PSCs). OIG selected an additional five PSCs in order to perform an in-depth comparison between the personal

and nonpersonal services contracts. See Appendix A for additional information.

16
   OIG considered the contracts labeled as “PSC and nonpersonal services contracts” to actually be PSCs based on

BBG’s indication that they were PSCs on the provided listing.


                                                        11

                                               UNCLASSIFIED
                                                   UNCLASSIFIED


whether they were personal or nonpersonal services contracts. To determine whether the 16
contracts labeled as nonpersonal services or not labeled at all were appropriately defined, we:
    •	 applied the six criteria identified in FAR 37.104(d) to each sample contract;
    •	 performed a comparison between the contracts labeled “personal services contract” and
       those labeled “nonpersonal services contract” to note similarities and differences; and
    •	 interviewed COs, CORs, and other program officials.
The execution of these three techniques required a careful review of each contract file, including
the award document and statement of work (SOW), as well as discussions with BBG personnel
who awarded and administered each contract.

         Comparison to FAR PSC Requirements

        For the 16 contracts labeled as nonpersonal services contracts or not labeled at all, we
assessed whether the contracts were appropriately defined by comparing the job requirements
included in the contract to FAR criteria for determining whether contracts were personal in
nature. Our results are shown in Table 3.

Table 3. Comparison of Contract Requirements to FAR PSC Criteria
                                                                Number of
                                                                 Sample
                    FAR Criteria                                Contracts            Additional Comments
                                                               Meeting FAR
                                                                 Criteria
 Work performed on site.                                             14      Contractors performed work on site at
                                                                             either the VOA Headquarters in
                                                                             Washington, DC, the OCB in Miami, FL,
                                                                             or a regional BBG office.
 Principal tools and equipment were furnished by                     15      For example, computer equipment and
 the Government.                                                             programming was provided by BBG.
 Services were applied directly to BBG’s integral                    16      All of the work was in furtherance of the
 effort in furtherance of its assigned function or                           international broadcasting mission.
 mission.
 Comparable services, meeting comparable needs,                      16      Similar tasks were performed by civil
 were performed at BBG or other similar agencies                             service employees hired by BBG.
 using civil service personnel.
 Need for the type of service provided can                           15      The average length of contractor service
 reasonably be expected to last beyond 1 year.                               provided was 5 years, ranging from 1 to
                                                                             13 years.
 Inherent nature of the service, or the manner in                    15      Government employees directly
 which it is provided, reasonably requires (directly                         supervised the work performed by
 or indirectly) Government direction or                                      contractors.
 supervision of contractor employees.
Source: OIG prepared based on analysis of 16 contract files.

       OIG also took into account whether “contractor personnel [were] subject to the relatively
continuous supervision and control of a Government officer or employee,” and found that 14 of

                                                                12

                                                   UNCLASSIFIED
                                             UNCLASSIFIED


the 16 contractors were subject to continuous supervision from BBG employees or other
nonpersonal services contractors who were performing inherently governmental functions, and
ultimately that an employee/employer relationship existed. For example, the vast majority of the
contracts we selected called for the contractor to report to work, on site, during specified hours
and perform work as directed by a BBG employee.

       Please see Appendix B for additional details of our analysis of contracts that met the FAR
37.104(d) criteria for PSCs.

        Services Contract Comparison

        In applying the second technique of comparing personal and nonpersonal services
contracts in our sample, OIG performed a comparison of SOWs from the contracts identified as
personal services to SOWs from contracts labeled as nonpersonal services (or not labeled at all)
to determine whether the job requirements were similar. In 9 of 16 contracts labeled as
nonpersonal services or not labeled, OIG determined that the contractors were performing almost
identical job requirements as those labeled for personal services. Table 4 shows an example of
the similarities between a PSC and a nonpersonal services contract.

Table 4. Example of Personal and Nonpersonal Services Contract Comparison
        Personal Services Contract                 Nonpersonal Services Contract
            (BBG50-A-12-0536)                             (BBG28-A-12-0031)
 Host/Reporter/Writer/Translator/          Producer/Writer/Editor/
 Researcher/Producer                       Reporter/Translator
 Translate texts into Urdu                 Translate news to Azerbaijani
 Host live show                            Conduct interviews for broadcast
 Conduct research, writes, voices stories  Write and voice original scripts for broadcast
 Produce radio material suitable for Urdu  Produce radio shows
 broadcast
 Write/voice/produce stories or hosts live Participate in live broadcasts
 shows
Source: OIG generated based on BBG contract files.

       For the remaining 7 of 16 contracts labeled as nonpersonal services or not labeled at all,
OIG was not able to perform a comparison because there were no analogous job titles within our
sample of PSCs. However, OIG performed an analysis of each SOW and determined that the job
requirements for 5 of those 7 contracts were personal in nature. Specifically, we found that the
SOWs contained job requirements similar to that which would be expected of full-time
employees.

        Contracting Official Interviews

       Finally, during interviews with various COs, CORs, and other program officials, OIG
asked why contractors were hired to fill positions that should have been full-time employees.
According to agency officials, this occurred because they did not have the authorization to fill

                                                     13

                                             UNCLASSIFIED
                                               UNCLASSIFIED


full-time employee positions. OIG also asked IBB officials why this practice continued to occur,
and found that it had been a long-standing practice which had never changed, even when it was
identified as a problem. 17 BBG officials stated that they had examined other options to the use
of PSCs, such as obtaining the services of a staffing agency to contract out the positions or
requesting more full-time employee positions, but each option would likely increase costs more
than 30 percent and, therefore, had not been acted upon. Finally, in order to further explore the
issue of personal versus nonpersonal services contractors, OIG asked an IBB official, CON
officials, COs, and CORs to explain the difference between the two types of contracts. The
answer to this question was universal: there was no difference in the nature of the contract or
work performed; instead, the determination was based solely on the language service requesting
the contract.

       As a result of our analyses, we determined that BBG had not appropriately labeled its
nonpersonal services contracts for 14 of 16 contracts we reviewed; OIG could not determine
whether the remaining two contracts were appropriately labeled. The FAR clearly implies that
contract language is not the only determinant for defining services contracts but the manner in
which the contract is administered is equally important. Merely changing words without
changing the relationship between BBG and the contract employees does not resolve the issue of
whether these contracts are PSCs. Further, when comparing services, contracts labeled as
personal or nonpersonal services, we found that, although the contract language differed, the
manner in which the contracts were administered was identical. In addition to our analysis, an
IBB official stated that the BBG had approximately 660 services contracts that may have been
personal in nature. 18 Based on BBG’s improper labeling of 14 (88 percent) of the 16 contracts in
our sample, statements made by various BBG officials, and work performed by another Federal
agency, OIG concluded that the overwhelming majority of BBG’s services contracts were likely
personal in nature.

        Determination that BBG Exceeded Statutory Authority

        Once OIG determined that BBG had improperly labeled its services contracts, we
conducted additional analysis to determine whether BBG was meeting or exceeding its statutory
authority regarding PSCs. Based on our review of each PSC file selected as a part of our sample,
we determined that BBG violated each of the statutory conditions instituted via the Personal
Services Contracting Pilot Program. Specifically, the Pilot Program required:
     1.	 the IBB Director to make a determination “that existing personnel resources are
         insufficient and the need is not of permanent duration.” OIG was provided with three
         Request for Group Approval of Proposed Personal Service Contracts memoranda, which

17
   The Internal Revenue Service (IRS) determined in a 2010 examination that certain contractors included in “talent
and other professional services” were not independent contractors and should have been classified as employees for
tax purposes. Per an IRS memorandum dated November 22, 2013, it was the IRS position that “the agency [BBG]
exercised or had the right to exercise such control over the workers in the performance of their services as was
necessary under the usual common-law rules to establish the relationship of employer and employee.”
18
   OIG was not able to verify the number of services contracts because a listing of contracts did not exist. See
Appendix A for more information.

                                                        14

                                               UNCLASSIFIED
                                               UNCLASSIFIED

        provided “group” approval for certain language services to enter into PSCs. These
        memoranda authorized a specific number of PSCs for each language service. However,
        none of the group approval memoranda contained a determination that personnel
        resources were insufficient or that the need was not permanent.
     2.	 the IBB Director to “approve each employment of a personal services contractor.”
         Although the Director signed a “group” approval memorandum, OIG does not consider
         that memorandum to fulfill the requirements of the statute. Further, of the seven 19
         contract files identified as PSCs that we reviewed as part of our sample, none contained
         an approval by the Director.
     3.	 that “The contract length, including options, may not exceed 2 years, including options,
         unless the Director makes a finding that exceptional circumstances justify an extension of
         up to one additional year.” OIG found that 3 of the 7 PSCs selected for review were
         more than 2 years in length, and the remaining 4 PSCs were expressly 1 year in length;
         however, the 4 contracts were renewed for multiple years without competition. For
         example, one personal services contractor had been providing the same services to BBG
         continuously since 2003.
     4.	 “Not more than a total of 60 United States citizens or aliens are employed at any one time
         as personal services contractors under the program.” According to BBG records, as of
         March 20, 2013, BBG had filled 43 20 of 60 authorized PSC slots. However, as stated,
         during our audit work, we found 14 contracts that should have been PSCs. Based on this
         work, we concluded that BBG likely exceeded the statute’s limit on the number of PSCs
         employed by awarding an overwhelming majority of all services contracts as nonpersonal
         services contracts, though they were personal in nature.

Use of Nonpersonal Services Contracts To Perform Personal Services

       OIG recognizes that there may have been multiple reasons that BBG utilized nonpersonal
services contracts to perform personal services. One reason may have been because, according
to BBG contracting officials, they did not know the difference between personal and nonpersonal
services contracts. This is an indication that some or all BBG contracting officials may not have
been fully aware of or properly trained on the proper implementation and specific limitations of
applicable statutes.

Noncompliance With the Anti-Deficiency Act

       As a result of noncompliance with the FAR and other procurement statutes, OIG
concluded that BBG had a reportable violation of the ADA, which states, “An officer or
employee of the United States Government…may not accept voluntary services for [the]


19
   This includes five contracts identified as PSCs and two identified as both a PSC and nonpersonal services

contract.

20
   BBG officials stated on August 19, 2013, that there were 44 PSCs in place; however, the listing of PSCs provided 

to OIG as of March 20, 2013, included only 43 PSCs.


                                                        15

                                               UNCLASSIFIED
                                               UNCLASSIFIED


government or employ personal services exceeding that authorized by law except for
emergencies involving the safety of human life or the protection of property.”

OIG Outline for Action

       The BBG was notified of this reportable violation of the ADA via OIG’s Outline for
Action, and the following recommendation was made:

        OIG recommends that the Director of the International Broadcasting Bureau immediately
        cease the use of personal services contracts that violate the Anti-Deficiency Act, take
        administrative disciplinary action as deemed appropriate, and report immediately to the
        President, Congress, and Comptroller General all relevant facts and a statement of actions
        taken, as required by Title 31 U.S. Code Section 1351, “Reports on violations.”

        On October 1, 2013, BBG sent a letter to OIG, with various members of Congress
copied, stating that “the Office of Inspector General’s Office of Audits has identified areas of
concern that require immediate attention. These areas are described generally as significant
noncompliance with the Federal Acquisition Regulation and violations of the Anti-Deficiency
Act,” (see Appendix E). BBG officials later stated that this October 1 letter was their “report” to
Congress of the ADA violations identified by OIG. BBG’s report to Congress of its ADA
violations needs to further comply with the reporting requirements, as required by 31 U.S.C.
1351, “Reports on violations.” Specifically, Office of Management and Budget (OMB) Circular
A-11, Section 145, provides detailed information about what should be included in each letter to
the Director of the OMB, the President, Congress, and the Comptroller General and provides
sample letter templates. 21

        Subsequently, on October 28, 2013, BBG sent its second official response to the OIG
Outline for Action (see Appendix F), in which it neither agreed nor disagreed with OIG’s
identification of an ADA violation in regard to PSCs but instead stated, “we look forward to a
discussion with the OIG about the relevant legal authorities pertaining to the Federal Acquisition
Regulation (FAR) provisions on personal service contractors.” The memorandum also stated
that “IBB staff is working closely with VOA leadership to evaluate new strategies for securing
the best talent available for our media needs. One of these strategies might require the agency to
move some of its non-PSC workforce to PSCs, in which case the agency would seek legislation
to raise its cap on the number of PSCs.”

      On November 22, 2013, BBG sent a third response to the OIG Outline for Action (see
Appendix G), in which BBG disagreed with OIG’s finding that it had exceeded its statutory




21
  Two sample letters for reporting ADA violations appear in OMB Circular No. A-11, Section 145, Exhibit 145A
and 145B, on pages 7 and 8. The sample letters include specific details of the identified ADA violation, such as a
dollar amount, a description of the nature of the violation, and the administrative discipline imposed.

                                                        16

                                               UNCLASSIFIED
                                              UNCLASSIFIED


authority for hiring PSCs. Specifically, BBG did not agree with the FAR’s definition of a PSC. 22
BBG claimed that the contracts were actually POV contracts rather than PSCs, which would
negate OIG’s findings based on FAR 37.104 criteria. However, FAR 37.104 (a) states that a
PSC is characterized by the employer-employee relationship it creates between the Government
and the contractor’s personnel. As noted in FAR 37.104(c), in determining whether an
employer-employee relationship occurs, “each contract arrangement must be judged in the light
of its own facts and circumstances, the key question always being: Will the Government exercise
relatively continuous supervision and control over the contractor personnel performing the
contract.” Regardless of whether the contracts we examined were POVs, the facts and
circumstances demonstrated that the Government exercised relatively continuous supervision
and control over the contractor personnel.

         BBG’s fourth response to the Outline for Action dated January 2, 2014 (see Appendix H),
did not specifically address this recommendation; however, in its fifth response to the Outline for
Action, dated April 29, 2014 (see Appendix I, Enclosure 1 of BBG’s response to the draft
report), the BBG provided contradictory information. The BBG stated that its view, “as a matter
of law,” was that it had not exceeded its authority regarding PSCs, resulting in no reportable
violation of the ADA. Instead, the BBG had “begun a consultation process with OMB” for a
determination on whether a reportable violation occurred. However, in this same response, the
BBG concurred that it cannot employ PSCs in excess of those authorized. As a result, the BBG
stated that it had decided to move away from using a “so-called Purchase Order Vendor (POV)
contract vehicle [to] instead contract through one or more staffing agencies.” The BBG stated
that, in February 2014, the agency issued “a Request for Information seeking firms potentially
interested in providing broadcast journalism support services to submit capabilities statements
and potential cost structures,” to which it received 12 submissions. The BBG stated that the next
phase in the process is to issue a Request for Proposal. The BBG also stated that “to mitigate the
risks identified by the OIG, the Agency has sought authority from the Congress to employ up to
700 United States citizens or aliens” as PSCs. Finally, the BBG stated that it “will also reissue
clear guidance to each manager about the distinction between independent contractors and
personal service contractors.”

        OIG considers this Outline for Action recommendation unresolved because of the BBG’s
reluctance to report on the ADA violation as required by 31 U.S.C. 1351, “Reports on
violations.”

Conclusion

       BBG violated the ADA by regularly awarding services contracts that were incorrectly
labeled as nonpersonal services contracts but were personal in nature. OIG thoroughly reviewed
each of BBG’s responses to our Outline for Action and concluded that BBG did not provide


22
  The Outline for Action response dated November 22, 2013, is presented in Appendix G; however, BBG’s
explanation of its disagreement with the FAR criteria for determining who is and who is not a PSC was derived from
Enclosure 2 of the response, which OIG did not include in the Appendix.

                                                       17

                                              UNCLASSIFIED
                                        UNCLASSIFIED


sufficient information to show that it had not exceeded its statutory limit of personal services
contractors.

       Recommendation 3. OIG recommends that the Director of Global Operations adhere to
       the conditions stated in 22 U.S. Code 6206 for hiring personal services contractors;
       specifically, a determination of resources needed should be made; the Director should
       approve the employment of each personal services contractor; and contract length,
       including options, should not exceed 2 years.

       Management Response: BBG concurred with the recommendation, stating that it “will
       update the relevant portion of its Broadcasting Administrative Manual to incorporate all
       relevant conditions set out in 22 U.S.C. 6206 for BBG’s Personal Services Contractor
       Pilot Program.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the relevant portion of
       the BAM has been updated and procedures have been implemented, including all relevant
       conditions stated in 22 U.S.C. 6206 for hiring PSCs.

       Recommendation 4. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, update its training curriculum to ensure that contracting officers and
       other responsible contracting officials are appropriately trained to award and administer
       personal services contracts in accordance with the statutory requirements as defined by
       the Personal Services Contracting Pilot Program.

       Management Response: BBG concurred with the recommendation, stating that it will
       “establish a training course covering award and administration of personal services
       contracts” and that the training would cover multiple Federal requirements, “BBG’s
       Personal Services Contracting Pilot Program, and relevant provisions in BBG’s BAM.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that CON has updated its
       training curriculum, as described, and administered a course covering the award and
       administration of PSCs with pertinent contracting personnel to ensure that responsible
       contracting officials are appropriately trained.

Finding C. Practice of Contract Pre-Approval Resulted in Reportable
Violations of the Anti-Deficiency Act
       OIG found that BBG obligated funds before they were available by allowing contractors
to work without contracts in place. Specifically, many of the services contracts reviewed had
been signed by the CO after the period of performance had begun, requiring the CO to grant
“pre-approval” for the contractor to work until funds were secured and the subsequent contract
was awarded. Contractors working without valid contracts may have occurred for a number of

                                                 18

                                        UNCLASSIFIED
                                              UNCLASSIFIED


reasons. A lack of contract oversight may have resulted in a lapse in period of performance,
whereby the contract expiration dates passed unnoticed, but contractors continued to work, or
funds may not have been certified prior to COs granting pre-approval. BBG’s utilization of this
practice resulted in reportable violations of the ADA, which prohibits Federal employees from
“making or authorizing an expenditure from, or creating or authorizing an obligation under, any
appropriation or fund in excess of the amount available in the appropriation.” 23 To further
exacerbate the problem, COs and other agency officials stated that contractors may not have
been aware that they were working without a valid contract, constituting an additional reportable
violation of the ADA in regard to the voluntary services provision discussed in Finding B.

Federal and BBG Policies Regarding Obligating or Expending Federal Funds

        The ADA prohibits Federal agencies from obligating or expending Federal funds in
advance or in excess of an appropriation, apportionment, or certain administrative subdivisions,
such as allotments, of those funds, via 31 U.S.C. 1517(a) and 31 U.S.C. 1514(a). The
Government Accountability Office (GAO) 24 provides an interpretation of these U.S.C. sections,
which states, “overobligation or overexpenditure of an allotment or suballotment are always
violations. Overobligation or overexpenditure of other administrative subdivisions are violations
only if and to the extent specified in the agency’s fund control regulations.”

        OIG was provided with the BAM, Title 7, Part 100, “Accounting Principles and
Standards,” as the BBG’s fund control regulation. There was no evidence of OMB approval, and
the regulation was not posted on the BBG Web site, as required by OMB Circular A-11, Section
150.7. The BAM, Title 7, Section 104, “Fund Control,” states that the control of appropriations
is exercised by allotment authorities, which are delegations of authority made by the Director,
Office of Budget, to issue allotments. The section defines the fund control principles applicable
to the agency and also states that obligations incurred or disbursements made in excess of the
amount permitted by an allotment constitute a violation of the ADA.

        Contracting prior to funding availability is also addressed in FAR Part 32, “Contract
Financing,” which states, “No officer or employee of the Government may create or authorize an
obligation in excess of the funds available, or in advance of appropriations” and that “before
executing any contract, the contracting officer shall obtain written assurance from responsible
fiscal authority that adequate funds are available or expressly condition the contract upon
availability of funds.” 25

       Appendix C provides additional information regarding Federal and BBG policies
governing the obligating and expending of Federal funds.


23
   31 U.S.C. 1341 (a)(1)(A) as interpreted by the Government Accountability Office. See Appendix C for additional 

information.

24
   GAO-06-382SP, Principles of Federal Appropriations Law, Third Edition, Volume II, February 2006 (Red 

Book).

25
   FAR 32.702.


                                                       19

                                              UNCLASSIFIED
                                               UNCLASSIFIED



Pre-Approval of Contracts

       OIG found that BBG obligated funds before they were available by allowing contractors
to work without contracts in place. BBG had a process to allow for a “pre-approval,” which
allowed for the period of a contract to begin before the contract was awarded. Specifically, the
following was required for contract pre-approval:

         Permission from the Office of Contracts to have a contractor perform work
         before a written award is in place. Service Chiefs requesting Pre-Approval must
         send an e-mail to the Office of Contracts. Funds must be available at the time
         of the Pre-Approval request, and a requisition must be sent to the Office of
         Contracts…within 7 days of the request so that a written award is made in time
         to pay the Contractor’s invoice. 26

         To evaluate the contract pre-approval process, OIG reviewed 23 services contracts, 27
many of which were in the form of blanket purchase agreements (BPA) with associated call
orders, 28 and also reviewed budget documentation provided by the Office of Budget. We found
that 14 contracts or call orders were signed by the CO after the period of performance had begun.
Of the 14 contracts or call orders, 12 were not signed until anywhere from 2 to 17 weeks after the
actual period of performance had begun.

        For example, OIG found that, for Contract BBG51-A-13-0001, the CO sent an email on
April 18, 2013, to the SPE (regarding this contract and nine additional contracts), stating: “I need
guidance with the BPA’s for the PSC’s. [Their] 2012 BPA’s ended 2/28/13. [Administrative
Officer] is requesting new BPA’s because these people are still working and they will be
invoicing soon.” The SPE replied via email: “The contractors may continue to work if they have
an active, funded delivery order. If they don’t have a delivery order then they should go home
UNLESS pre-approval is given.”

        In a follow-up email, the SPE granted pre-approval for the 10 contracts, for $6,000 each,
or a total of $60,000. OIG noted that the contract was dated May 31, 2013; however, upon
inquiry, the CO stated that the contract was backdated and not actually signed until June 27,
2013, or 17 weeks after the contractor was performing services. The period of performance in
the contract was May 1, 2013, through April 30, 2014. In a meeting with the OIG, the COR for
this contract stated that the practice of pre-approval resulted in contractors not being paid for
months.


26
   BBG, “COR Level I Training Handouts,” March 2013.
27
   The sample of 34 contracts selected for testing included 18 services contracts (16 nonpersonal services contracts
and 2 PSCs); we selected an additional five PSC contracts in order to perform an in depth comparison between the
personal and nonpersonal services contracts. See Appendix A for additional information.
28
   A BPA is an award document that contains terms and conditions by which delivery orders, or call orders, are
issued to a contractor. BBG’s BPAs typically had a 1-year term with no options for renewal and were not
obligating documents.

                                                         20

                                               UNCLASSIFIED
                                        UNCLASSIFIED


        According to one BBG official, the practice of pre-approval was a common occurrence,
and a result of a lack of acquisition planning. The official stated that “anyone that wants funds
prior to the start of the next quarter has to get special authority.” A CO stated that “pre­
approvals are used so a vendor can begin work to prevent a break in work prior to receiving the
funding citation.” A different CO stated that she never liked the idea of giving pre-approval
because she did not believe that a contractor should work when funds were not available. She
further stated that if she did not grant program offices a requested pre-approval, the customer
would go to upper management and obtain the pre-approval from them.

Determination that Funds Were Not Always Available

        OIG found that 14 of 23 services contracts, totaling $431,502, were signed by the CO
after the period of performance began, and did not have funds certified prior to the pre-approval
request, but we could not determine whether funding was available for 10 of the 14 contracts
because of lack of documentation. Further, OIG found that, for 4 of the 14 contracts, totaling
$51,140, the period of performance began before the program office obtained an allotment from
BBG’s Office of Budget.

        For example, OIG’s review of a call order associated with Contract BBG50-D-12-0044,
found that the program office official had requested advance approval on October 12, 2012, for a
contractor to provide services during October 13–24, 2012. On the same day, the CO stated in
an email, “Advance approval is hereby granted for [contractor] in the amount not to exceed
$5,500 for the period of October 13, 2012, through October 24, 2012, while you await fiscal data
for the Contingent [Continuing] Resolution.” OIG noted that the associated call order was not
signed by the CO until December 9, 2012, or approximately 2 months after the advance approval
was given, and more than 6 weeks after the services were provided. Based on documentation
provided by BBG, the appropriation, apportionment, and allotment were available on October
19, 2012; therefore, the contractor was working for 6 days prior to BBG’s receipt of funding.
This is a violation of the ADA.

        Another example, OIG’s review of a call order associated with Contract BBG39-A-11­
0553, revealed a similar violation. In an email to the CON Branch Chief, an AO stated: “You
gave me pre-contracting approval for 7 days from 10/12/11. I’m waiting for budget to enter the
funds. Can our contractor work next week?” The CON Branch Chief for this contract replied:
“Based on your email below the present approval is hereby extended another (7) working days
through 10/25/11.” On November 9, 2011, the AO stated in an email to the CO, “I am holding
his October invoice until you prepare the call order,” implying that the call order for work
performed during October was not prepared or signed until after the services were provided.
OIG reviewed the October invoice and noted that it was dated October 31, 2011, but was not
stamped as “received” until November 29, 2011. Based on documentation received from BBG,
it appears that funds were allotted for this transaction on October 24, 2011, which was 21 days
after the contractor began to perform work for the BBG—a violation of the ADA.




                                                21

                                        UNCLASSIFIED
                                        UNCLASSIFIED


        In a third example, OIG found that a call order associated with Contract BBG50-A-12­
0006 was dated November 4, 2011, although the period of performance began on October 10,
2011. The accompanying advice of allotment showed that, prior to October 14, 2011, the total
allotment for this program office was $3,800. The call order totaled $7,600, which was more
than the total amount allotted to the office at the time the contract was entered. This is a
violation of the ADA.

Use of Contract Pre-Approval

         There are likely multiple underlying reasons the practice of obligating funds prior to
availability occurred within BBG, and two are discussed. One rationale that OIG identified was
that in some instances, because of a lack of contract oversight, the program office did not realize
that a contract had terminated but the contractor continued working. Eventually, that contractor
would submit an invoice and the program office or CO would realize that there was not a valid
contract in place and would have to execute a back-dated contract, which utilized an obligation
that was not available at the beginning of the period of performance. Another reason that funds
may not have been available when the contractor began work was that funds had not been
certified prior to COs granting pre-approval.

Noncompliance with the Anti-Deficiency Act

        Some BBG officials stated that contractors likely were unaware that they were working
without valid contracts in place. This was significant because contractors continued to provide
services to BBG unaware that they may not receive payment for these services. In effect, the
contractors were providing voluntary services during the period of time when no valid contract
was in place and funds were not secured. As a result, by not having valid contracts in place for
14 of 23 contracts reviewed, BBG accepted voluntary services. Under 31 U.S.C. 1342, an
officer or employee of the U.S. Government may not accept voluntary services exceeding that
authorized by law except for emergencies involving the safety of human life or the protection of
property. A violation of 31 U.S.C. 1342 results in a violation of the ADA.

       In addition, a violation of 31 U.S. Code 1341 results in a violation of the ADA. Under 31
U.S.C. 1341(a)(1), “An officer or employee of the United States Government…may not:
       (A) make or authorize an expenditure or obligation exceeding an amount available in an
       appropriation or fund for the expenditure or obligation;
       (B) involve [the] government in a contract or obligation for the payment of money before
       an appropriation is made unless authorized by law.”

       The BAM also states that BBG considers “[o]bligations incurred or disbursements made
in excess of the amount permitted by an allotment” to be “a violation of the Anti-Deficiency Act
as amended.” Based on BBG’s fund control guidance, OIG finds there to be clear and
convincing evidence that obligating funds in advance of an Advice of Allotment is a violation of
the ADA for BBG.


                                                22

                                        UNCLASSIFIED
                                               UNCLASSIFIED



BBG Response to OIG’s Outline for Action

       As discussed in Finding B, on September 26, 2013, OIG issued an Outline for Action,
through which BBG was notified of the ADA violation regarding the obligation of the
Government without assurance of appropriate funds. In the Outline, we made the following
recommendation:

        OIG recommends that the Director of the International Broadcasting Bureau immediately
        cease the use of pre-approval for contracts, which violates the Anti-Deficiency Act, take
        administrative disciplinary action as deemed appropriate, and report immediately to the
        President, Congress, and Comptroller General all relevant facts and a statement of actions
        taken, as required by Title 31 U.S. Code Section 1351, “Reports on violations.”

        On October 1, 2013, BBG sent a letter to OIG, with various members of Congress
copied, stating that “the Office of Inspector General’s Office of Audits has identified areas of
concern that require immediate attention. These areas are described generally as significant non­
compliance with the Federal Acquisition Regulation and violations of the Anti-Deficiency Act,”
(see Appendix E). BBG officials later stated that this October 1 letter was their “report” to
Congress of the ADA violations identified by OIG. BBG’s report to Congress of its ADA
violations needs to further comply with the reporting requirements, as required by 31 U.S.C.
1351, “Reports on violations” and by 31 U.S.C. 1517 “Prohibited Obligations and
Expenditures.” Specifically, OMB Circular A-11, Section 145 provides detailed information about
what should be included in each letter to the Director of the OMB, the President, Congress, and
the Comptroller General, as well as a sample letter template. 29

        Subsequently, on October 28, 2013, BBG sent its second official response to the OIG
Outline for Action (see Appendix F), in which it neither agreed nor disagreed with OIG’s
identification of an ADA violation in regard to exceeding available appropriations. Instead, the
response stated, “we pledge to provide you with additional information on the agency’s contract
pre-approval process.” However, BBG never provided OIG with an adequate response to our
requests for information related to pre-approval.

       In its third response to the OIG Outline for Action, dated November 22, 2013 (see
Appendix G), BBG stated, “We understand that the OIG team has acknowledged that pre­
approval, by itself, does not create an ADA violation.” While we agree that pre-approval alone
does not constitute a violation of the ADA, BBG never provided OIG with sufficient information
to show that BBG did in fact have funding available during the “pre-approval” period for the
contracts as mentioned in this section.

        BBG’s fourth response to the Outline for Action, dated January 2, 2014 (see Appendix
H), did not specifically address this recommendation; however, in its fifth response to the

29
  Two sample letters for reporting ADA violations appear in OMB Circular No. A-11, Section 145, Exhibit 145A
and 145B, on pages 7 and 8. The sample letters include specific details of the identified ADA violation, such as a
dollar amount, a description of the nature of the violation, and the administrative discipline imposed.

                                                        23

                                               UNCLASSIFIED
                                        UNCLASSIFIED


Outline for Action, dated April 29, 2014 (see Appendix I, Enclosure 1 of BBG’s response to the
draft report), BBG stated that it had “ended the practice of pre-approval, and sent clear guidance
to all employees that the practice will stop immediately.” The BBG also stated that it had
completed an assessment of 28 contracts or BPAs, which were part of OIG’s sample, “to
conclude whether or not there was a commitment in excess of an allotment.” BBG stated that as
a result of its internal review, it identified four contracts for which it cannot confirm that
sufficient funds were available in an allotment at the time the BBG incurred the obligation, and
that if this is accurate, BBG “will have exceeded the amount available in the corresponding
allotment, which would be reportable violations of the ADA.” BBG stated that it will conduct
additional reviews to verify its results, and if its final analysis confirms the existence of
violations of the ADA, it would report on those violations accordingly.

        OIG considers this Outline for Action recommendation resolved. This recommendation
can be closed when OIG reviews and accepts documentation showing that the BBG has ceased
the use of contract pre-approval and communicated this guidance to all employees and finalized
its analysis of the 28 contracts and reported on the identified ADA violations as required by 31
U.S.C. 1351, “Reports on violations.”

Conclusion

         As a result of the practice of pre-approval, OIG determined that BBG had reportable
violations of the ADA. Specifically, 31 U.S.C. 1341 and 1342 prohibit Federal employees from
“making or authorizing an expenditure from, or creating or authorizing an obligation under, any
appropriation or fund in excess of the amount available in the appropriation,” and involving
“[the] government in a contract or obligation for the payment of money before an appropriation
is made unless authorized by law,” and states, “An officer or employee of the United States
Government…may not accept voluntary services for [the] government or employ personal
services exceeding that authorized by law except for emergencies involving the safety of human
life or the protection of property.”

        OIG considered each of BBG’s responses to our Outline for Action and concluded that
BBG did not provide sufficient information to show that it had properly ensured that funds were
available prior to obligating the Government and allowing contractors to provide services. OIG
also identified that the contract pre-approval process essentially allowed BBG to accept
voluntary services as provided by contractors, also violating the ADA, and that BBG’s
October 1, 2013, “report” to Congress did not meet the requirements for reporting ADA
violations in accordance with 31 U.S.C. 1351 and 1517.

       Recommendation 5. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, in coordination with the Office of the Chief Financial Officer,
       develop and implement policies and procedures to ensure that funds are available at the
       beginning of the period of performance for each contract, which should include the
       tracking of contract period of performance and the maintenance of appropriate
       documentation within the contract file. If funds are not available for the entire term of a


                                                24

                                        UNCLASSIFIED
                                       UNCLASSIFIED


       contract because of a continuing resolution, a subject to availability clause should be
       included in the terms and conditions of the contract, per the Federal Acquisition
       Regulation.

       Management Response: BBG concurred with the recommendation, stating that it will
       “develop and implement policies and procedures related to the issuance of contracts and
       the availability of funds clause at the beginning of the period of performance for each
       contract” and that this effort will “include utilizing controls to monitor and manage
       contract status and period of performance.” BBG further stated that contracting officers
       will be required to include an “availability of funds clause” in every BBG-awarded
       contract.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that the BBG has
       developed and implemented policies and procedures to ensure that funds are available at
       the beginning of the period of performance for each contract, including a tracking
       mechanism, maintenance of appropriate documentation in the contract file, and a subject
       to availability clause in contracts.

       Recommendation 6. OIG recommends that the International Broadcasting Bureau
       develop and implement fund control regulations, obtain approval from the Office of
       Management and Budget for the fund control regulations, and post the fund control
       regulations on its Web site, as required by Office of Management and Budget Circular
       A-11.

       Management Response: BBG concurred with the recommendation, stating that its
       Office of the Chief Financial Officer and Office of General Counsel had begun drafting a
       new funds control regulation. Once drafted, BBG stated that it would “finalize [the]
       funds control regulation, seek OMB approval for this regulation, and post the final
       regulation on bbg.gov.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       and implemented fund control regulations, obtained approval from OMB for these
       regulations, and posted the regulations on the its Web site.

Finding D. Pre-Solicitation Practices Did Not Comply With the Federal
Acquisition Regulation
       OIG found that BBG had not adequately performed pre-solicitation contracting phase
requirements, such as acquisition planning or market research. Specifically, OIG found that
none of the selected sample of 34 contracts contained evidence that sufficient acquisition
planning was performed as is required by the FAR. Furthermore, 33 of the 34 contracts in our
sample did not include documentation of market research, which is also required by the FAR.

                                                25

                                       UNCLASSIFIED
                                       UNCLASSIFIED


Failure to comply with the FAR likely occurred for multiple reasons, including but not limited
to, BBG not having internal policies or procedures governing the pre-solicitation requirements
for acquisition planning and market research. Without conducting acquisition planning or market
research, BBG did not ensure that the Government had selected appropriate vendors, awarded
correct contract types, received the best prices for goods and services, or always executed the
contract. Further, possibly because of a lack of acquisition planning, BBG did not execute two
contracts, resulting in unspent funds of $437,350 that had not been deobligated and used for
other authorized purposes.

Acquisition Planning Not Performed
         FAR Part 2, “Definitions,” defines acquisition planning as the process by which the
efforts of all personnel responsible for an acquisition are coordinated and integrated through a
comprehensive plan for fulfilling the agency need in a timely manner and at a reasonable cost. 30
FAR 7.102 states that acquisition planning must be performed for all acquisitions and that the
planning shall integrate the efforts of all personnel responsible for significant aspects of the
acquisition. The purpose of this planning is to ensure that the Government meets its needs in the
most effective, economical, and timely manner. In addition, FAR 7.103 states that agency heads
are responsible for prescribing acquisition planning procedures, which include establishing
criteria and thresholds at which written acquisition plans must be prepared and also for ensuring
that the planning principles outlined in FAR Part 7, “Acquisition Planning,” are used whether or
not a written acquisition plan is required.

        OIG found that none of the 34 contract files reviewed contained documentation to
indicate that sufficient acquisition planning had been performed. Additionally, no contract files
in the sample contained a written acquisition plan. Although the CO or program official may
have conducted some aspects of acquisition planning, in general, OIG found no evidence that
complete acquisition planning had been performed. For example, Contract BBG50-P-12-0092,
totaling $45,500 for “Original Writing, Reporting, Hosting,” did not contain any documentation
to evidence that acquisition planning had occurred. OIG interviewed the CO, who stated that he
was not a part of the selection process for choosing this vendor; therefore, he was not able to
provide additional information regarding to what extent, if any, acquisition planning had
occurred. OIG also interviewed the COR for this contract, who stated that the vendor was hired
approximately 3–4 years prior and that the vendor’s contract had been renewed each year since.

       In a second example, the file for Contract BBG38-F-11-0002, a purchase order for one
shipment of diesel fuel totaling $15,339, did not contain any documentation that acquisition
planning had occurred. OIG interviewed the CO for the contract and found that the vendor had
been chosen based on a master contract from the Department of Defense. However, the CO had
never seen the master contract and was not aware of the reasons for procuring fuel through this
vehicle, despite having awarded the contracts in this manner for 3 years. OIG determined that
there was no assurance that utilizing the Department of Defense contract as a procurement
mechanism for the purchase of fuel was the most beneficial strategy for BBG.

30
     FAR 2.101.

                                               26

                                       UNCLASSIFIED
                                               UNCLASSIFIED


        None of the COs interviewed during our audit could elaborate on acquisition planning
that occurred within CON. Specifically COs stated that they were not involved in any parts of
acquisition planning. One CO stated that COs “depended on program officials” to perform all
aspects of planning. Generally, COs were not involved in the acquisition process until a
requisition was sent to CON, often with a vendor and price already identified.

Market Research Not Performed

       According to FAR Part 2, market research is collecting and analyzing information about
capabilities within the market to satisfy agency needs. FAR Part 10, “Market Research,”
requires market research to be conducted for all acquisitions to ensure that agencies identify
legitimate needs and evaluate trade-offs when acquiring items for acquisitions above and below
the simplified acquisition threshold. 31

        OIG found that only one out of 34 contracts reviewed contained documentation that
sufficient market research had been performed prior to awarding a contract. The other 33
contracts in OIG’s sample did not contain evidence to indicate that sufficient market research
had been conducted. While a CO or program official may have conducted some aspects of
market research, OIG found that, in general, market research had not been performed for each
contract.

        For example, Contract BBG50-P-12-0303, for a hotel room lease in Taiwan totaling
$45,000, contained a letter from the program office listing two other vendors with much higher
prices than the vendor selected, but there was no documentation that the CO had done any
research to determine whether other vendors were available. Additionally, the CO stated in an
interview with OIG that the award to the specific vendor had been based on BBG historically
using this vendor for a number of years, rather than performing planning activities or research to
determine that the vendor was the best option.

No Policies or Procedures for Pre-Solicitation Requirements

        Failure to comply with the FAR likely occurred for multiple reasons; OIG believes one
reason was because CON did not have internal policies and procedures that provided guidance
regarding pre-solicitation requirements. In our review of BBG’s policies, we did not find
direction on how or to what extent acquisition planning and market research should be
performed, nor did we find criteria establishing thresholds at which written plans must be
prepared. OIG interviewed 15 COs who either stated that acquisition planning had not been
performed, could not speak to whether planning had been performed, or stated that they did not
have guidance related to the conduct of acquisition planning or market research. When asked
why no acquisition planning or market research had been performed, one CO stated that she
generally had relied on how acquisitions had been done in the past, often resulting in continued
awards to long-standing contracts with familiar vendors. Furthermore, two COs stated that they

31
     FAR 2.101 and FAR 10.001, respectively.

                                                    27

                                               UNCLASSIFIED
                                       UNCLASSIFIED


had too many contracts to administer on a timely basis, leaving no time to perform planning
activities or market research.

Conclusion

        Without performing acquisition planning and market research as required by the FAR,
BBG lacked key components to ensure successful procurements. Acquisition planning and
market research are essential in promoting and providing for competition and in selecting the
appropriate contract type in compliance with Federal regulations. Based on our review of
selected contracts, OIG determined that there was no reasonable assurance that BBG obtained
the best price for goods and services for any of the sampled contracts; therefore, BBG may not
have met its needs in the most effective, economic, and timely manner. Further, OIG identified
two examples within our sample of 34 contracts in which a contract had been signed and funds
had been obligated, but the contract was never executed. Both of these situations could have
occurred because of multiple reasons, including but not limited to, a lack of planning. Funds for
Contract BBG50-F-12-0340, totaling $402,350, had been obligated using FY 2012 funds.
However, the contract had not been executed but was not subsequently terminated, and the
$402,350 had not been deobligated. For Contract BBG50-P-11-0560, totaling $35,000, BBG
expended a portion of the obligated funds. However, BBG did not utilize the services that were
contracted, resulting in $16,670 in funds that were not deobligated. OIG believes that if BBG
had performed adequate acquisition planning procedures for both of these contracts, these funds,
totaling $437,350, may have been obligated for more appropriate contracts and utilized within
their years of appropriation. By the end of OIG’s fieldwork, BBG took action to deobligate the
remaining funds related to these contracts.

       By updating and implementing detailed policies and procedures for the type, extent, and
manner in which acquisition planning and market research are to be performed, COs and
program officials would have the tools necessary to adequately perform the pre-solicitation FAR
requirements, and therefore, provide further assurance that BBG’s procurement needs are met in
the most appropriate manner and ensure that funds are obligated and used for intended purposes.

       Recommendation 7. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop policies and procedures and implementation guidance for
       conducting acquisition planning, in accordance with the Federal Acquisition Regulation.
       Specifically, criteria and thresholds should be established to dictate when a written
       acquisition plan is needed and guidance should establish what types of documentation
       should be maintained in the contract file.

       Management Response: BBG concurred with the recommendation, stating that it “will
       draft an Acquisition Planning policy that complies with the FAR.”

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       policies and procedures and implementation guidance for conducting acquisition

                                               28

                                       UNCLASSIFIED
                                              UNCLASSIFIED


        planning in accordance with the FAR, including criteria and thresholds to dictate when a
        written acquisition plan is needed and what types of documentation should be maintained
        in the contract file.

        Recommendation 8. OIG recommends that the International Broadcasting Bureau,
        Office of Contracts, develop policies and procedures and implementation guidance for
        conducting market research, in accordance with the Federal Acquisition Regulation.
        Specifically, criteria should be established to dictate the type and extent of market
        research to be performed for each procurement action and what types of documentation
        should be maintained in the contract file.

        Management Response: BBG concurred with the recommendation, stating that it “will
        develop policies and procedures and implementation guidance for conducting and
        documenting market research, including the type and extent of market research” in
        accordance with the FAR.

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation showing that BBG has developed
        policies and procedures and implementation guidance for conducting market research,
        including criteria to dictate the type and extent of market research for procurements and
        what documentation should be maintained in the contract file.

Finding E. Competition Practices Did Not Comply With the Competition in
Contracting Act or the Federal Acquisition Regulation
         OIG identified three main areas in which BBG had not adequately complied with
requirements to promote or provide for full and open competition in soliciting offers or awarding
contracts. First, BBG published quarterly “sources sought” notices 32 rather than publicizing
individual contract actions. Second, BBG did not properly evaluate quotations or offers prior to
awarding contracts. Third, BBG did not adequately justify other than full and open competition
when awarding sole-source acquisitions. There were likely many reasons that BBG generally had
not promoted competition; one reason being a lack of internal policies and procedures. Another
reason was that BBG’s acquisition process was largely driven by the program offices, which
disregarded, or were not aware of, FAR requirements. Without promoting competition when
soliciting and awarding contracts, BBG did not ensure that the Government had received fair and
reasonable prices for goods and services. In addition, without full and open competition, the
potential for fraud, waste, and abuse exponentially increased.




32
  FedBizOpps states that “the Sources Sought notice is a synopsis posted by a government agency that states they
are seeking possible sources for a project. It is not a solicitation for work, nor is it a request for proposal.”

                                                        29

                                              UNCLASSIFIED
                                       UNCLASSIFIED



Competition in Contracting Act

      Under the Competition in Contracting Act, 41 U.S.C. 3301(a), an executive agency in
conducting a procurement for property or services shall:

       (1) obtain full and open competition through the use of competitive procedures in
       accordance with the requirements of this division and the Federal Acquisition Regulation;
       and

       (2) use the competitive procedure or combination of competitive procedures that is best
       suited under the circumstances of the procurement.

       The Competition in Contracting Act allows for exceptions to the full and open
competition requirement as specified in 41 U.S.C. 3303, 3304, and 3305 or as expressly
authorized by statute. As provided in 41 U.S.C. 3301(c), the FAR shall ensure that the
requirement to obtain full and open competition is implemented in a manner that is consistent
with the need to efficiently fulfill the Federal Government’s requirements.

Inappropriate Use of Quarterly Sources Sought Notices

        FAR Part 5, “Publicizing Contract Actions,” establishes that COs publicize contract
actions in order to increase competition, broaden industry participation in meeting Government
requirements, and assist small business concerns in obtaining contracts and subcontracts. FAR
5.201 requires agencies to make notices of proposed contract actions available for acquisitions of
supplies and services and requires COs to transmit a notice to the Government-wide point of
entry, FedBizOpps.gov (FBO), for each proposed contract action expected to exceed $25,000.
Furthermore, FAR 5.204 requires COs to synopsize a proposed contract action before issuing
any resulting solicitation.

        OIG determined that BBG violated FAR requirements for publicizing contract actions by
not transmitting a notice to the FBO for each proposed contract action. Based on a review of 34
contract files, OIG found that 17 contracts were awarded against a quarterly sources sought
notice, rather than being individually announced, as required by FAR 5.201.

       CON regularly used the quarterly sources sought notices as a vehicle for awarding
contracts against, rather than seeking potential sources, which is their intended use. BBG
published quarterly sources sought notices on FBO that generally covered two types of needs—
broadcast services and journalists or stringers (who conduct freelance broadcasting assignments).
Both types of quarterly sources sought announcements were general in description and included
multiple assignment areas.

      For example, the quarterly sources sought notice for journalists and stringers dated
September 30, 2011, stated:



                                               30

                                       UNCLASSIFIED
                                              UNCLASSIFIED


        The U.S. Broadcasting Board of Governors, International Broadcasting Bureau, Voice of
        America, and Office of Cuba Broadcasting are seeking qualified individuals for free­
        lance Radio, Television, Internet, and/or Multi-Media English and/or foreign language
        news broadcasting assignments in Washington DC; Miami, FL; and various overseas
        locations…. Assignments include script writing, editing, on-air announcing, technical and
        production services, photo editing, video journalism, graphic illustrating, producing
        programming using state of the art multi-media platforms, and audience mail analysis.

        The announcement further stated that individuals interested in the free-lance English or
foreign language news broadcasting assignments may submit written inquiries or statements of
interest to the appropriate BBG organization. Although the quarterly sources sought
announcements stated that “This Notice is not a [Request for Quotation] RFQ, [Request for
Proposal] RFP, or [Invitation for Bid] IFB,” BBG purportedly entered into contracts with
respondents to the sources sought notice.

         CON officials initially acknowledged that awarding contracts against these quarterly
notices was not in accordance with the FAR, and stated that they had obtained an opinion from
the General Service Administration’s Acquisition Solutions stating that the practice was not in
accordance with the FAR. OIG also contacted the General Service Administration regarding this
matter, and a representative from its Office of Acquisition Policy stated that it is not allowable
under the FAR to award contracts against a sources sought notice. However, BBG’s November
22, 2013, response to OIG’s Outline for Action states that the use of sources sought notices “is a
valid interpretation of FAR requirements.” 33 OIG agrees with the General Service
Administration’s determination that this practice is not a reasonable interpretation of the FAR.
By awarding contracts against the quarterly sources sought notices, BBG is not adequately
soliciting sources for specific services and is not in compliance with the FAR.

       OIG could not determine with certainty why BBG had not complied with FAR
requirements to sufficiently compete contract needs; however, one reason was likely because
CON had not implemented updated policies and procedures to ensure that solicitation procedures
complied with regulations.

        BBG’s response to the Outline for Action also stated that the quarterly notices “allow for
a nearly continuous, open, competitive announcement process for talent vendors.” Yet OIG
found that BBG’s use of the quarterly notices to award contracts resulted in the opposite—a
solicitation process absent any competition. Without adequately soliciting sources, BBG did not
promote for full and open competition and may not have received products and services in the
most efficient and economical manner.




33
  The Outline for Action response dated November 22, 2013, is presented in Appendix G; however, the quotes
regarding the use of sources sought were derived from Enclosure 1 of the response, which OIG did not include in the
Appendix.

                                                        31

                                              UNCLASSIFIED
                                              UNCLASSIFIED


        Recommendation 9. OIG recommends that the International Broadcasting Bureau,
        Office of Contracts, cease the use of quarterly sources sought announcements for
        awarding contracts.

        Management Response: BBG concurred with the recommendation, stating that it had
        “communicated to the appropriate acquisition officials in the Agency to cease domestic
        use of the quarterly sources sought synopsis at the beginning of this fiscal year and
        advised overseas contracting officers to discontinue using the sources sought synopsis in
        April 2014.”

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation showing that BBG has directed
        domestic and overseas COs to cease the use of the quarterly sources sought
        announcements, and that COs no longer utilize the announcements for awarding
        contracts.

        Recommendation 10. OIG recommends that the International Broadcasting Bureau,
        Office of Contracts, develop internal policies and procedures and implementation
        guidance to ensure compliance with the Competition in Contracting Act and Federal
        Acquisition Regulation regarding the publication of contract actions.

        Management Response: BBG concurred with the recommendation, stating that it “will
        develop policies and procedures and implementation guidance to ensure compliance with
        the Competition in Contracting Act (CICA) and the FAR regarding publicizing contract
        actions.”

        OIG Reply: OIG considers this recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation showing that BBG has developed
        policies and procedures and implementation guidance to ensure compliance with the
        Competition in Contracting Act and the FAR regarding the publication of contract
        actions.

No Evidence that Offers Were Evaluated

        A key component of competition is obtaining quotations and offers to determine the best
value. According to FAR Part 2, “best value” is the expected outcome of an acquisition that, in
the Government’s estimation, provides the greatest overall benefit in response to a requirement. 34
Further, FAR Subpart 8.4, “Federal Supply Schedules,” requires COs to obtain quotes from at
least three contractors when placing an order on a Federal Supply Schedule 35 item. For
simplified acquisitions, FAR 13.106-2 states that COs shall evaluate quotations or offers in an

34
  FAR 2.101.

35
  See FAR 8.405-1. FAR 8.402(a) also states that “the Federal Supply Schedule program is directed and managed

by [the General Services Administration] GSA and provides Federal agencies with a simplified process for obtaining

commercial supplies and services at prices associated with volume buying.”


                                                       32

                                              UNCLASSIFIED
                                        UNCLASSIFIED


impartial manner, that quotations or offers shall be evaluated on the basis established in the
solicitation, and that all quotations or offers shall be considered.

       OIG determined that BBG had violated competition requirements outlined in FAR Part 6
and evaluations of quotations and offers for simplified acquisitions, as required by FAR 13.106.
By using a quarterly sources sought notice for solicitation, BBG did not adequately receive or
evaluate sources for competition. In addition, for those contracts that were awarded via other
means than the quarterly sources sought notice, no documentation was maintained in the file to
evidence that multiple offers had been evaluated. In total, documentation in the files for 27 of 34
contracts in our review indicated that the contracts had been awarded under full and open
competition, but OIG could not determine that other offers were sufficiently evaluated prior to
awarding the contract.

         For example, OIG reviewed contract documentation for Contract BBG28-F-11-0031,
totaling $190,686, for broadcasting equipment from a Federal Supply Schedule and determined
that it had not been appropriately competed. Only one quote was received for this solicitation,
and the contract file did not include an explanation of why additional quotes were not obtained or
the efforts made to obtain additional quotes. Program officials stated that the vendor was the
only source offering the needed equipment, and therefore, three bids could not be obtained.
However, they were unable to provide support for this statement.

         There were likely many reasons why BBG COs did not adequately evaluate all quotations
and offers; one reason being that BBG did not have internal policies and procedures to ensure
that all offers were evaluated for each proposed contract action. OIG found that COs lacked
guidance and direction for how to appropriately evaluate offers in order to promote competition.
As a result, BBG had no reasonable assurance that it was getting the best value and the greatest
overall benefit to the Government. Competition in contracting provides assurance that the
Government has received a fair and reasonable price and encourages contractors to offer best-
value proposals when bidding on Federal contracts, thereby reducing costs and protecting the
interests of the taxpayers.

       Recommendation 11. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop updated internal policies and procedures and
       implementation guidance to ensure that all offers are evaluated for each proposed
       contract action and adequately documented in the contract file.

       Management Response: BBG concurred with the recommendation, stating that it “will
       update its policies and procedures and implementing guidance to ensure that all offers are
       evaluated for all proposed contract actions and adequately documented in the contract
       file.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG developed
       policies and procedures and implementation guidance to ensure that all offers are

                                                33

                                        UNCLASSIFIED
                                              UNCLASSIFIED


        evaluated for each proposed contract action and adequately documented in the contract
        file.

Justifications for Other Than Full and Open Competition Not Sufficient

        OIG determined that BBG had not adequately justified contracts awarded with other than
full and open competition. Although competition is the preferred method of acquisition within
the Federal Government, FAR Part 6.302 permits other than full and open competition under
certain circumstances. 36 FAR Part 6 states that COs shall not commence negotiations for sole-
source contracts or for contracts resulting from an unsolicited proposal and shall not award any
contract without providing for full and open competition unless the CO justifies such actions in
writing and the justification is approved by the agency authority. 37

        Based on a review of 34 contracts, OIG found that seven of the contract files reviewed
included documentation stating that they had been awarded as sole-source acquisitions. Of the
seven, two did not include a justification for other than full and open competition (JOFOC), and
four did not include a JOFOC that documented all items required by the FAR. In addition to the
seven sole-source acquisition files, two files included statements that the contract was awarded
under full and open competition but also included incomplete JOFOCs. Contracts that are
awarded under full and open competition should not include JOFOCs.

        For instance, OIG reviewed the contract file for Contract BBG50-J-12-0709, for a supply
of new high-power vacuum tubes for transmitter stations, totaling $284,661. The contract had
been awarded as a sole-source acquisition. However, there was no documentation in the file
detailing why no other vendors were available to provide the supplies, and the contract file did
not include a JOFOC. The CO for the contract stated that there was no other vendor who could
provide the same kind of tubes, but the CO did not document this fact in the file.

         In another case, the file for Contract BBG50-C-11-0023, a lease for broadcasting
transmission services totaling $940,008, had an insufficient JOFOC. The contract was awarded
as a sole-source acquisition under the circumstance that only one responsible source was
available to satisfy agency requirements. The contract file included a JOFOC; however, the
JOFOC did not contain sufficient evidence to satisfy that the vendor met the criteria. The
JOFOC also did not adequately address all of the FAR requirements. For example, the FAR
states that the file should include “a determination by the contracting officer that the anticipated
cost to the Government will be fair and reasonable.” However, the JOFOC included in the file
stated:




36
   The circumstances allowed by the FAR include: only one responsible source and no other supplies or services to 

satisfy agency requirement, unusual and compelling urgency, international agreement, authorized or required by

statute, and national security.

37
   FAR 6.303-2 outlines the facts and rationale that must be included in written JOFOCs.


                                                        34

                                              UNCLASSIFIED
                                              UNCLASSIFIED


        The Contracting Officer for this procurement has determined that the anticipated
        cost…to the Government will be fair and reasonable. This determination is based
        on comparison to similar services acquired over the past two years.

        OIG did not find evidence in the contract file that a comparison had been completed.
Finally, OIG found that the contract file included conflicting information regarding competition.
Specifically, a document in the file stated that the vendor was the eighth most popular radio
station in Kyiv, and an email stated that two other stations were examined to provide the services
but were not chosen due to lack of audience reach and availability of time slots. 38 However, the
JOFOC stated that the justification for the sole-source acquisition was because “alternate means
of broadcasting in this market have been blocked by government authorities.” There was no
evidence that the remaining five stations had been examined for possible fulfillment of the
contract or that other stations were “blocked by government authorities.”

       There were likely many reasons that BBG had not adequately complied with
requirements for justifying other than full and open competition; one reason being that BBG did
not have internal policies and procedures detailing how to do so. COs lacked guidance for
complying with FAR competition requirements, as evidenced by the inclusion of conflicting
competition documents in contract files. By not completing or insufficiently completing
JOFOCs, BBG had no reasonable assurance that contracts awarded as sole-source acquisitions
should have been awarded as such.

        Recommendation 12. OIG recommends that the International Broadcasting Bureau,
        Office of Contracts, develop internal policies and procedures and implementation
        guidance to ensure that justifications for other than full and open competition are
        adequately documented and only utilized in accordance with Federal Acquisition
        Regulation guidance.

        Management Response: BBG concurred with the recommendation, stating that it “will
        develop policies, procedures, and implementing guidance” covering pertinent
        Competition in Contracting Act and FAR requirements. The BBG further stated that
        “implementing guidance will require that Justifications For Other Than Full and Open
        Competition be included in contract files in accordance with FAR 4.803(a)(2).”

        OIG Reply: OIG considers this recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation showing that BBG developed
        policies and procedures and implementation guidance to ensure that JOFOCs are
        adequately documented and utilized in accordance with Federal regulations.




38
   OIG notes that this information was obtained via email documentation and that there were no documents in the
file evidencing the review of two radio stations.

                                                       35

                                              UNCLASSIFIED
                                        UNCLASSIFIED



Acquisition Process Driven by IBB Program Offices

         Another reason competition largely did not occur was because contracting within BBG
was driven by the program offices rather than by CON. OIG found that offers and quotations
were not evaluated because of the program offices’ influence and pressure on COs to award the
contract to the contractor that was pre-selected by the program office. Specifically, BBG
officials explained the typical process for identifying and obtaining a contractor: Program
officials generally identified a need for a particular service, obtained sources through reference
or word-of-mouth within the broadcasting community, interviewed candidates, and selected the
candidate who best fit their need. In general, documentation of this process was not maintained.
The program office then provided a resume, SOW, and requisition to CON. Certain COs
required program officials to submit three resumes for candidates as documentation that multiple
candidates were evaluated. However, OIG found that this was an exercise in “papering the file,”
that is, including documentation in the file, rather than a true attempt to promote full and open
competition because resumes included in the files did not always reflect qualified candidates.

        Because acquisitions were driven by the program offices, many COs with whom we
talked stated that they were frustrated because they felt that they were unable to do their jobs in
accordance with Federal regulations. Further, they felt as though CON management did not
provide support when they tried to “fight back” against program office demands. Many COs
explained that they received push back from program offices and were often forced by upper
management in CON to award contracts without adequately promoting competition. For
example, a number of COs stated that they had refused to sign contracts because the contracts
did not comply with all applicable Federal regulations. In these cases, OIG found that the SPE
had signed the contracts for COs when they had refused to sign themselves. For example,
Contract BBG50-P-11-0009, totaling $99,000 awarded to a contractor for organizing town hall
meetings and training sessions in Nigeria, was signed by the SPE rather than the CO who
administered the contract. The CO stated that she did not sign the contract because it had not
been competed and the steps necessary for a complete JOFOC had not been performed. The SPE
signed the contract, but the CO performed the administration of the contract.

        During an interview, the SPE admitted to OIG that he had signed contracts that did not
comply with the FAR, and stated that his actions were due to pressure he received from program
offices. Senior staff within CON also stated that they had not been able to provide support to
their COs or “push back” against program offices because BBG upper management did not
acknowledge COs as having authority and did not place value on complying with Federal
regulations for acquisitions. For example, Contract BBG50-P-11-0068, totaling $25,000 for the
creation of a large-scale social media initiative, did not meet FAR requirements for competition
or pricing. Specifically, the Senior Strategist within the program office who requested the
vendor had insisted on a quick turnaround time and had refused to compete the contract. The CO
that was originally assigned to this contract stated that she had refused to sign the contract
because she did not feel comfortable with the lack of competition. Documentation in the
contract file showed that a senior IBB official sent emails to the SPE, pressuring them to issue
the contract more quickly, by reiterating, “[T]his is of extremely high priority to the

                                                36

                                        UNCLASSIFIED
                                        UNCLASSIFIED


governors.” At one point, the SPE wrote an email stating, “We will make the award as soon as
possible, but I am not circumventing the law for you or anyone else.” However, multiple senior
IBB officials were copied on the email, and the contract was signed the day after the email from
the SPE was sent, even though a finalized SOW had not been prepared and without competition
or a fair and reasonable price determination. According to the SPE, he signed the contract as a
result of pressure from senior IBB management.

Conclusion

        The lack of adequate competition was likely the result of many factors, including BBG
not establishing or enforcing adequate policies and procedures governing the competition
process, as well as undue influence from BBG program offices. By not promoting competition,
BBG had no reasonable assurance that it had received a fair and reasonable price for goods and
services. Furthermore, the lack of competition resulted in the appearance of favoritism in
awarding contracts. OIG believes that a lack of competition because of influence from program
offices circumvents the Competition in Contracting Act requirement for full and open
competition; increases the potential for corrupt practices to occur; and increases the risk of fraud,
waste, and abuse.

       Recommendation 13. OIG recommends that the Director of Global Operations provide
       guidance to all offices within the International Broadcasting Bureau to explain the role of
       the Office of Contracts and the requirement for all acquisitions to comply with the
       Competition in Contract Act and follow the Federal Acquisition Regulation, and to
       reinforce the authority of the Senior Procurement Executive.

       Management Response: BBG concurred with the recommendation, stating that “the
       Director of Global Operations has issued a memorandum to all agency staff involved in
       the acquisition process, explaining and emphasizing the importance of the role of the
       Office of Contracts, and affirming the requirement that all acquisitions comply with the
       Competition in Contracting Act (CICA), the Federal Acquisition Regulation, and all
       other applicable acquisition-related laws, regulations, policies and procedures.”

       The BBG further stated that the Director issued a second memorandum to all employees
       “reminding them that the aforementioned laws, regulations, policies, and procedures
       define the responsibilities and authorities of all individuals/agency elements involved in
       the agency’s acquisition processes” and highlighted duties particularly relevant to the
       SPE.

       OIG Reply: OIG considers this recommendation closed. BBG provided OIG with the
       two internal memoranda signed by the Director of Global Operations that address the
       importance of the Federal procurement process and pertinent regulations. The first
       memorandum was addressed to all BBG COs and purchase cardholders, reminding them
       of the need to comply with pertinent Federal and BBG regulations, policies, and
       procedures and stated that if they are

                                                 37

                                        UNCLASSIFIED
                                      UNCLASSIFIED

              ...receiving undue pressure from IBB, VOA, or OCB officials to conclude
              any acquisition actions in a manner that is not consistent with the FAR,
              agency policies and procedures, or any other applicable laws, rules, and
              regulations, s/he shall report the matter to the Senior Procurement
              Executive (SPE) immediately. The SPE will investigate the matter and, as
              necessary and required, report the matter to the IBB Chief of Staff and to
              me [the Director].

       COs and purchase cardholders were also reminded that they are “accountable for all of
       the documents they sign regardless of whether their signatures result from inappropriate
       influence from others and whether or not the inappropriate influence was reported.”

       The second memorandum was addressed to all BBG employees, reminding them of the
       need to comply with pertinent Federal and BBG regulations, policies, and procedures; of
       the responsibilities and authorities of the SPE, COs, CORs, and agency employees; and
       that employees who unduly pressure contracting officials to circumvent the FAR “will be
       subject to disciplinary action, up to and including removal.”

       OIG considers the two memoranda to be sufficient to meet the intent of the
       recommendation.

       Recommendation 14. OIG recommends that the International Broadcasting Bureau hold
       comprehensive training to ensure that all employees involved in the acquisition process
       are aware of the Competition in Contracting Act and Federal Acquisition Regulation as it
       relates to competition, as well as the implications of noncompliance.

       Management Response: BBG concurred with the recommendation, stating that it will
       “establish an enhanced training curriculum covering the [Competition in Contracting Act]
       CICA and FAR as it relates to competition as well as the implications of noncompliance”
       with these regulations.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has updated its
       training curriculum and administered a course covering the Competition in Contracting
       Act and the FAR as it relates to compliance with competition requirements and the
       implications of noncompliance.

Finding F. Contract Pricing Determinations Did Not Comply With the
Federal Acquisition Regulation
         OIG determined that 30 of the 34 contracts reviewed, totaling approximately
$3.5 million, did not have appropriate price determinations performed by the CO as required by
the FAR. Instead, the COs allowed each program office to determine its own rates. Contract
files included documentation stating that prices had been determined using the outdated POV

                                               38

                                      UNCLASSIFIED
                                              UNCLASSIFIED


Handbook or had no documentation stating how prices had been determined. There were likely
many reasons why contract prices were not appropriately determined or documented, including
outdated policies or procedures to guide COs on how to appropriately determine contract prices,
and because program offices often pre-determined contract pricing independent of CON. As a
result, BBG had no assurance that contracts were priced appropriately, resulting in $3.5 million
in unsupported contract actions.

FAR Requirements for Contract Pricing Determinations

        FAR 15.402 states that COs shall purchase supplies and services from responsible
sources at fair and reasonable prices. Generally, when certified cost or pricing data is not
required, 39 the CO should establish the reasonableness of the offered prices by obtaining other
relevant data, such as data from sources other than the offeror. No additional data is necessary if
the price was based on adequate competition. For simplified acquisitions, FAR 13.106-3 states
that “before making [an] award, the contracting officer must determine that the proposed price is
fair and reasonable.” The FAR further states, “If only one response is received, include a
statement of price reasonableness in the contract file.” 40

POV Handbook Contact Pricing Rates

        As stated in prior findings, OIG did not identify any current policies or procedures related
to the acquisition process. However, OIG did note that some contract file documentation
referred to the POV Handbook when making determinations of contract price reasonableness.
With regard to contract price determinations, the POV Handbook states: “Payment appropriate
for contractor services is determined based on the nature of the assignment, the expertise of the
contractor, and budgetary constraints… The price schedule in Part IV (page IV-1) is not
current and may not be used as a guide to determine fair and reasonable rates for
contractor services. It is provided only as a guide for budgetary and planning purposes
[emphasis added].” Part IV of the POV Handbook lists five genres and multiple types of job
positions with specific detailed job responsibilities for each genre. For example, the POV
Handbook entry for the genre of Television Producer/Writer/Researcher/Reporter states:

        Prices per story are determined by Contracting Officer and based on the
        complexity of the story, amount of research required, number of shoot and edit
        days, and the amount of original production verses stock or Government furnished
        news footage.



39
   Per FAR 15.403-1, certified cost and pricing data is not required for purchases of commercial items, items under
the simplified acquisition threshold, or when agreed-upon prices were based on adequate competition.
40
   Per FAR 13.106, the CO may base the statement on market research; comparison of the proposed price with prices
found reasonable on previous purchases; current price lists, catalogs, or advertisements; a comparison with similar
items in a related industry; the CO’s personal knowledge of the item being purchased; comparison to an independent
Government estimate; or any other reasonable basis.

                                                        39

                                              UNCLASSIFIED
                                         UNCLASSIFIED


                          Program Duration Price per Assignment(s)
                           Up to two minutes      $75.00 – $250.00
                           Two to five minutes   $200.00 – $550.00
                           Five to 10 minutes  $300.00 – $1,000.00
                           10 to 30 minutes    $500.00 – $1,500.00
                           30 to 60 minutes    $700.00 – $2,500.00

Sufficient Contract Price Determinations Not Performed

       Because full and open competition was generally not utilized within BBG acquisitions,
COs should have obtained and maintained documentation of other data sources to make a
determination of contract price reasonableness. However, OIG found that 30 of 34 contracts
reviewed, totaling approximately $3.5 million, all of which should have had a contract price
determination, did not have an appropriate price determination performed by the CO. Of the 30
contract files without adequate contract price determinations, 21 contained insufficient
documentation and 9 contained no documentation. COs stated that they had often accepted the
proposed rate of the program office instead of conducting their own analysis to determine
whether contract prices were fair and reasonable.

       For example, 13 of 34 files included a document titled “Price Proposal” to support
contractor rates. This document, an example of which is provided in Figure 1, simply states the
vendor name, position, and rate request with a reference to the POV Handbook.

Figure 1. Example of Contract Price Proposal




       Source: BBG file for Contract BBG39-A-10-0541.

        In addition, OIG found that 4 of 34 contracts reviewed included a form in the contract file
titled “Fair and Reasonable Price Determination,” which was typically prepared and reviewed by
the CO. This form generally stated:

       I (Buyer) am recommending award to [Contractor]. I used one or more of the
       following check price analysis techniques compared to the quoted price of $___.
       The quoted price was similar enough to the comparative price to conclude that the
       quotation is fair and reasonable.


                                                  40

                                         UNCLASSIFIED
                                       UNCLASSIFIED


This form typically also made reference to the POV Handbook for pricing information. For
example, the file for Contract BBG50-D-10-0016, which totaled $85,200, contained a Fair and
Reasonable Price Determination form, which stated that the POV Handbook was used to make
the fair and reasonable price determination.

        There were likely many reasons why COs did not determine whether contract prices were
fair and reasonable. For example, COs did not have appropriate guidance on how to make
contract price determinations, and they generally allowed program offices to pre-select vendors
and contract prices. Because of a lack of management support in CON, it was the general
practice of the COs to accept whatever price was proposed by the program office. For instance,
when asked by OIG how he made price determinations, one CO replied, “Who am I to tell the
program office how much to pay the contractor? It’s their money!”

Conclusion

        As a result of the lack of sufficient price determinations, BBG had no reasonable
assurance that contract prices were appropriate or that the Government was receiving the best
value for the services provided. In addition, leaving contract pricing determinations to the
program offices opened the door for fraud, waste, and abuse.

       Recommendation 15. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop comprehensive policies and procedures and implementation
       guidance that directs contracting officers how to determine and document whether
       contract prices are fair and reasonable.

       Management Response: BBG concurred with the recommendation, stating that its CON
       will “develop comprehensive policies and procedures that adhere to all FAR
       requirements on how to determine and document that contract prices are fair and
       reasonable” and will “issue implementation guidance mandating that contracting officers
       follow those policies and procedures.” BBG further stated that this guidance “will also
       include examples of prohibited practices, such as allowing any Agency official other than
       the contracting officer to make a determination that the contract price is fair and
       reasonable.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that CON has developed
       policies and procedures and implementation guidance that directs COs on how to
       determine and document whether contract prices are fair and reasonable.

       Recommendation 16. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, update its training curriculum to ensure that contracting officers and
       other responsible contracting officials are appropriately trained to conduct and document
       contract price determinations.



                                               41

                                       UNCLASSIFIED
                                 UNCLASSIFIED


Management Response: BBG concurred with the recommendation, stating that its CON
will “update its training curriculum to ensure that contracting officers and other
responsible contracting officials are appropriately trained to conduct and document
contract price determinations.” The BBG further stated that the training “will emphasize
how to conduct price analysis and provide examples of prohibited practices, such as using
outdated pricing information.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has updated its
training curriculum and administered a course covering contract price determinations.

Recommendation 17. OIG recommends that the International Broadcasting Bureau,
Office of Contracts, review each of the contracts notated in Table 1 of Appendix A of the
audit report to determine whether the contract price was fair and reasonable in
accordance with Federal regulations. For each contract in which the price was
determined not to be fair and reasonable, assess whether the contract can be processed
using the ratification authority in Federal Acquisition Regulation 1.602-3, and if so, ratify
the contract. If the contract cannot be ratified, legal advice must be obtained to determine
a resolution.

Management Response: BBG partially concurred with the recommendation, stating,
“The Office of Contracts will review each of the contracts notated in Table 1 of
Appendix A of the audit report to determine whether the contract price was fair and
reasonable in accordance with the FAR.” However, BBG further stated that “there is no
legal or regulatory authority requiring ratification of validly awarded contracts whose
prices were subsequently unilaterally deemed too high by the Government solely due to
the Government’s failure to conduct appropriate cost or price analysis at the time of price
negotiation to determine the prices being agreed to were fair and reasonable.” BBG
concluded that its CON “will use the results of its review in its development of
comprehensive policies and procedures that adhere to all FAR requirements on how to
document and determine prices are fair and reasonable discussed in response to
Recommendation 15.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has reviewed
each of the contracts notated in Table 1 of Appendix A to determine whether the contract
price was fair and reasonable and that BBG has used the results of this review in its
development of policies and procedures regarding determinations of fair and reasonable
contract prices.




                                         42

                                 UNCLASSIFIED
                                               UNCLASSIFIED



Finding G. Contractor Responsibility Determinations Did Not Comply With
the Federal Acquisition Regulation
        OIG found that none of the 34 contract files reviewed contained evidence that a sufficient
contractor responsibility determination was made, as required by the FAR. The lack of
contractor responsibility determinations may have occurred, among other reasons, because BBG
did not have policies and procedures to provide guidance to COs on how to conduct
responsibility determinations and had inappropriate policies and procedures in place that
exempted certain vendors from registering in the Central Contractor Registration (CCR). 41 As a
result, BBG did not have reasonable assurance that contracts were awarded to qualified,
responsible, and eligible vendors.

Federal Requirements for Contractor Responsibility

        Federal Government regulations require agencies to ensure that the contractors they
propose to employ are responsible to do business with the Government. FAR 9.104-1 states that,
to be determined responsible, a prospective contractor must have, for example:
        •	 Adequate financial resources to perform the contract, or the ability to obtain them;
        •	 A satisfactory performance record; and
        •	 The necessary organization, experience, accounting and operational controls, and
           technical skills, or the ability to obtain them.

        FAR 4.1102 states that contractors shall be registered in the CCR, except for “[c]ontract
actions at or below $25,000 awarded to foreign vendors for work performed outside the United
States, if it is impractical to obtain CCR registration.” This means that any foreign vendor
awarded a contract for more than $25,000 should be registered in the CCR. 42

       FAR 9.104 states that, in general, the CO must make a responsibility determination using
pre-award surveys, past performance information, information on financial resources, or other
information from one or more of the following Federal Government sources:
        •	 CCR – collects information about the company, including general information, the
           type of organization, business type, goods and services provided, financial and
           payment information, and points of contact.

41
   The CCR was the primary supplier database for the U.S. Federal Government until July 30, 2012. The CCR
collected data from suppliers, validated and stored this data, and disseminated it to various Government acquisition
agencies. On July 30, 2012, the CCR transitioned to the System for Award Management e-procurement system,
which was launched to combine Federal procurement systems into one new system. The first phase included
functionality from three systems, to include the CCR and the EPLS.
42
   This section of the FAR was modified on December 20, 2012. Prior to this date, FAR 4.1102 stated, “Prospective
contractors shall be registered in the CCR database prior to award of a contract or agreement, except for…Awards
made to foreign vendors for work performed outside the United States, if it is impractical to obtain CCR
registration.”

                                                        43

                                               UNCLASSIFIED
                                            UNCLASSIFIED



        •	 Excluded Parties List System (EPLS) – identifies those parties excluded from
           receiving Federal contracts, certain subcontracts, and certain types of Federal
           financial and nonfinancial assistance and benefits.
        •	 Federal Awardee Performance and Integrity Information System – provides users
           access to integrity and performance information from the Contractor Performance
           Assessment Reporting System, as well as proceedings and suspension/debarment
           information.
        •	 Past Performance Information Retrieval System – provides timely and pertinent
           contractor past performance information to the Federal acquisition community for use
           in making source selection decisions. The FAR requires Federal agencies to post all
           contractor performance evaluations in this system.

Contractor Responsibility Determinations Not Sufficient

        OIG reviewed 34 contracts and determined that none contained adequate evidence that a
contractor responsibility determination was made. OIG found that 26 files contained a printout
demonstrating that the contractor had been registered in the CCR or the EPLS (or contained both
documents), while 8 files had no documentation relating to contractor responsibility
determinations. Although obtaining information from either CCR or EPLS would be part of the
process to assess contractor responsibility, these databases do not include all of the information
that a CO would need to make a determination on whether a contractor is sufficiently responsible
to perform work for the Government. OIG found no other evidence in the contract files showing
that COs had performed other duties to ensure that contractors were responsible.

        One of the reasons that BBG did not determine contractor responsibility was that it had
inappropriately exempted certain vendors from registering in the CCR. In order for contractors
to register in the CCR, they are required to have a Data Universal Numbering System (DUNS)
number. 43 BBG’s internal policy memorandum titled, “Generic Data Universal Numbering
System (DUNS) Numbers for Foreign Contractors,” dated January 12, 2007, states:

       The Office of Federal Procurement Policy (OFPP) recognized the difficulty in meeting
the above requirements [CCR registration] when circumstances such as the following exist:
     •	 The foreign contractor is unable to obtain a DUNS number because access to the Internet
        is restricted, connections are unstable or telephone connections are limited or
        nonexistence in rural areas.
     •	 When there are security concerns relative to a contractor who operates under an alias
        identity when obtaining news stories from the field, and obtaining DUNS numbers would
        jeopardize their identity and possible safety.



43
  A DUNS number is a unique, nine-digit number assigned to U.S. Government contractors and grantees and used
for all procurement-related activities

                                                     44

                                            UNCLASSIFIED
                                             UNCLASSIFIED



     •	 When the contractor refuses to obtain the DUNS number and is the only source available
        to provide the Agency with the required services or supplies (such as utilities and
        telecommunication services).
     •	 A foreign vendor that resides and works in a communist country or where the United
        States does not have diplomatic relations with that country, such as Iran and Cuba.

OFPP has granted authority for IBB to utilize a generic DUNS number for foreign contractors
without previously assigned numbers. The number is 123456787 and is registered in CCR as
“Miscellaneous Foreign Contractors.”

       However, OIG determined that this guidance was not in use, and rather than applying
each of the criterion above to each individual contract, BBG policy was to waive the requirement
of CCR registration for all foreign vendors. 44 Specifically, OIG found that five contractors in
our sample were improperly exempted from CCR registration. Three of those five files
contained memorandums that stated the following:

        BBG does not require foreign prospective contractors to be registered in the CCR
        because it is impractical to obtain CCR registration due to [any] or all of the
        possible time consuming reasons:
                 a. Mak[ing] (several) overseas telephone calls requesting foreign
                 contractors to register.
                 b. Waiting 7–10 days for CCR approvals to complete.
                 c. Hesitation [of] foreign contractors to provide their banking information
                 to CCR when [the] Contracting Officer should have this information
                 already.

        The reasons listed on this memorandum neither agreed with BBG’s internal policy, nor
did they validate that CCR registration was “impractical.” In another example, documentation
for Contract BBG50-C-11-0023, awarded to a broadcasting company in the Ukraine for
$940,008, stated that the “[Contractor] is exempt from registration on the Central Contractor
Registration (CCR) database, based on the fact that awards made to foreign vendors for work
performed outside the United States, if it is impractical to obtain CCR registration. [Contractor]
has indicated to the Overseas Contracting Officer that it would be impractical for them to register
in the CCR system.” There was also a memorandum in the file titled, “Observations based on
research about using DUNS number,” which was signed and dated by an overseas CO. The
memorandum stated that the “IBB priority is to have [an] easy working system without useless
administrative barriers.” The memorandum went on to exempt all affiliates in the region from
CCR registration, regardless of contract size or type.


44
  OIG also noted that in BBG’s COR training presentation dated June 2013, the following statement was made:
“CCR not necessary for any micro-purchase or purchases made overseas <$25k,” which is contrary to the FAR
requirement that excludes overseas purchases under $25,000, only if it is impractical to register.

                                                      45

                                             UNCLASSIFIED
                                        UNCLASSIFIED


         For this example, OIG found that the contractor did not meet any of the exception criteria
listed in BBG’s internal policy memorandum. Specifically, the foreign contractor did not have
restricted access to the Internet as they were a major broadcasting company; there were no
security concerns related to a contractor operating under an alias and further, per the contract, all
BBG programming must be attributed as such; the Ukraine was not a communist country; and
there was no indication that the contractor refused to obtain a DUNS number. OIG found no
documentation in the contract file to support the determination that it would be impractical for
this foreign vendor to obtain a DUNS number and register in the CCR, especially when receiving
a contract award valued at almost $1 million.

       In addition to having an outdated policy related to overseas contractors registering with
CCR, BBG also lacked appropriate policies and procedures to otherwise guide COs on how to
make responsibility determinations for vendors.

Conclusion

        The process of registering with the CCR is not a “useless administrative barrier” as
suggested by one BBG CO, and for many overseas contracts, registration is now required by the
FAR. The BBG policy related to CCR registration did not appear to be in use. The requirement
for contractor registration in the CCR database is prescribed to “(a) Increase visibility of vendor
sources (including their geographical locations) for specific supplies and services; and (b)
Establish a common source of vendor data for the Government.” CCR registration provides the
CO with a source of information to make contractor responsibility determinations, and a
vendor’s refusal to disclose information required for CCR registration, such as a tax
identification number, could indicate that the vendor is not responsible.

        As a result of the lack of contractor responsibility determinations, BBG had no
reasonable assurance that it had awarded contracts to responsible vendors. This could put the
BBG at risk of funding companies or individuals who may not be able to adequately complete
contract requirements, or who are not responsible to do business with the Government. Not
identifying and documenting that the BBG is doing business with responsible vendors is even
more of a problem because of the lack of contract oversight that OIG identified. Therefore, BBG
should implement appropriate policies and procedures to ensure that contractors are not
inadvertently exempted from providing important information and that COs can make informed
decisions on responsible contractors.

       Recommendation 18. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop and implement policies and procedures to provide guidance
       to contracting officers on the type and extent of contractor responsibility determinations
       to be made for each award and the types of documentation that should be maintained in
       the contract file.

       Management Response: BBG concurred with the recommendation, stating that it “will
       develop and implement policies and procedures for contracting officers about the type

                                                 46

                                        UNCLASSIFIED
                                UNCLASSIFIED


and extent of contractor responsibility determinations that must be made for each award
as well as the documentation that must be maintained in each contract file.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has developed
and implemented policies and procedures to provide guidance to COs on the type and
extent of contractor responsibility determinations to be made for each award and the
documentation to be maintained in the contract file.

Recommendation 19. OIG recommends that the International Broadcasting Bureau,
Office of Contracts, update its policies and procedures for contractor requirements for the
Data Universal Numbering System and registration within the Central Contracting
Registry to ensure that these procedures are in accordance with the Federal Acquisition
Regulation.

Management Response: BBG concurred with the recommendation, stating that it “will
update its policies and procedures regarding contractor requirements for Data Universal
Numbering System and registration in the System for Award Management to ensure these
procedures comply with the FAR.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has developed
and implemented policies and procedures for contractor requirements for the DUNS and
registration within the System for Award Management that are in accordance with
Federal regulations.

Recommendation 20. OIG recommends that the International Broadcasting Bureau,
Office of Contracts, update its training curriculum to ensure that contracting officers and
other responsible contracting officials are appropriately trained to conduct and document
responsibility determinations and to only allow exemptions under clearly defined
circumstances in accordance with the Federal Acquisition Regulation or Office of Federal
Procurement Policy guidance.

Management Response: BBG concurred with the recommendation, stating that it “will
update its training curriculum accordingly.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has updated its
training curriculum and administered a course covering contractor responsibility
determinations in accordance with Federal regulations.




                                        47

                                UNCLASSIFIED
                                                UNCLASSIFIED



Finding H. Contract Administration Practices Did Not Comply With the
Federal Acquisition Regulation
        OIG determined that BBG had not provided adequate contract administration.
Specifically, OIG identified four main areas in which contract administration did not comply
with FAR requirements: CON did not ensure that CORs were designated throughout the lifecycle
of all contracts; quality assurance procedures were not performed; contractors were assigned to
administer or oversee contracts; and contractor performance was not adequately documented.
These areas of contract administration were likely lacking due to many reasons, including that
relevant BBG policies and procedures did not exist, leaving contracting personnel with no
guidance to properly execute contract oversight. Without policies and procedures to ensure
sufficient contract oversight, BBG allowed contractors to perform inherently Governmental
functions, had no reasonable assurance that contract terms and conditions were achieved, and
could not verify that funds were spent appropriately, resulting in questioned costs and the
increased risk of contract fraud, waste, and abuse.

Inadequate Designation of Contracting Officer’s Representatives

        The CO is responsible for ensuring compliance with the requirements of the FAR. The
CO has the option of designating a COR, and FAR 1.602-2 requires that all CORs be designated
in writing. CORs assist in the technical monitoring and administration of a contract and are
responsible for ensuring that contractors meet the contract’s terms and conditions. However, if
the CO does not designate a COR, the CO retains full responsibility of contract administration
and oversight. A COR must be a Government employee and certified in accordance with the
OMB’s Federal Acquisition Certification for Contracting Officer’s Representatives (FAC-COR)
requirements. 45

        OIG determined that CORs were not always designated appropriately by the CO. OIG
reviewed 34 contracts and found that 25 contracts did not have a designated COR. Eight of 25
contracts that did not have a designated COR identified a technical point of contact or
Authorized Representative of the Contracting Office. Although these individuals were not
formally designated as CORs, according to the BAM, they were responsible for carrying out the
functions of a COR. Therefore, the employees should have been formally designated as a COR
as required by the FAR. None of the remaining 17 contracts had anyone assigned to oversee the
contract other than the CO. In the absence of a designated COR, COs stated that they ceded
oversight authority to staff in the program office, although there was no documented evidence of
this.



45
  The FAC-COR Program requirements are governed by the OMB Revisions to the Federal Acquisition
Certification for Contracting Officer’s Representatives memorandum, which revised the competency requirements
for CORs to establish a risk-based, three-tiered certification program that better reflects the important role of the
COR.

                                                          48

                                                UNCLASSIFIED
                                       UNCLASSIFIED


        One possible reason that BBG COs did not regularly designate CORs was because they
did not have official internal policies for how or when to do so. According to CON officials, the
Office of Policy within CON drafted a policy in March 2012 that required CORs to be
designated in writing for every contract. The policy was submitted to other BBG offices for
review and approval in June 2012; however, as of July 2013, the program offices had not
approved this policy.

         BBG took some additional steps to establish procedures related to COR designation.
Specifically, CON developed an internal training presentation and related documents for CORs
designated as Level I by the FAC-COR standards. These training materials included a “Draft
COR Level I Delegation Letter for BPA” that was updated in March 2013. OIG reviewed this
draft letter and determined that it met the requirements of a COR designation letter. However,
OIG believes that BBG must mandate that COs either appropriately designate a COR or maintain
complete oversight of the contract. Ensuring that a CO properly designates a COR would
minimize the risk that contract oversight is overlooked and ensure that CORs who are designated
are fully aware of their roles and responsibilities in ensuring adequate oversight of contracts.

       Recommendation 21. OIG recommends that International Broadcasting Bureau, Office
       of Contracts, develop policies and procedures and implementation guidance, which
       ensure that contracting officer’s representatives (COR) are designated for every contract,
       and that this documentation clearly defines the COR’s roles and responsibilities and is
       maintained in the contract file.

       Management Response: BBG concurred with the recommendation, stating that it “has
       issued a new policy that requires CORs to be designated for every contract” and that the
       “policy defines the COR’s roles and responsibilities, and requires that a copy of the
       designation be maintained in the contract file.”

       OIG Reply: OIG considers this recommendation closed. BBG provided OIG with a
       memorandum titled “IX BAM 164 Designation of Contracting Officers’ Representatives
       and Implementation of BBG Federal Acquisition Certification for Contracting Officer’s
       Representatives,” dated November 20, 2013. The policy states, “all contracts, purchase
       orders, Blanket Purchase Agreements (BPAs), call orders, delivery orders, and other
       acquisition vehicles placed under a Federal Supply Schedule shall have a COR
       designated in writing, if a COR will have responsibility for contractor performance or
       invoice processing.” The policy, which also outlines the COR responsibilities, states that
       contractors are not eligible to be designated as CORs and that a copy of the designation
       letter should be maintained in the official contract file. OIG considers this sufficient to
       meet the intent of the recommendation.

Sufficient Quality Assurance Was Not Performed

       Quality assurance activities include inspection, acceptance, warranty, and other measures
associated with quality requirements. FAR Part 46 prescribes steps agencies should take to

                                               49

                                       UNCLASSIFIED
                                              UNCLASSIFIED


ensure that supplies and services acquired under Government contract conform to the contract’s
quality and quality requirements. However, “the type and extent of contract quality requirements
needed depends on the particular acquisition.” 46

         OIG identified deficiencies in BBG’s performance of quality assurance measures.
Specifically, OIG found that certain services contracts lacked quality assurance surveillance
plans. OIG also found that quality assurance inspection procedures were not documented for
critical items. Further, OIG found that contract files for broadcasting services did not contain
evidence that quality assurance measures were performed. BBG had no internal policies or
procedures related to quality assurance, which may have been why COs and other contracting
personnel did not implement sufficient quality assurance techniques. Because BBG had no
quality assurance policies or procedures, there was no reasonable assurance that it received
products or services that it had paid for and under the terms of the contract. A lack of quality
assurance procedures puts BBG at risk for fraud, waste, and abuse.

        Quality Assurance Surveillance Plans

        FAR 46.103 requires that COs include appropriate quality requirements in each contract,
such as quality assurance surveillance plans for services contracts. Surveillance plans set forth
the procedures and guidelines that the contractor should use in ensuring the required
performance standards or services levels are achieved. It should also describe methods used to
monitor performance and identify the required documentation and the resources to be employed.
FAR 46.401 states that the quality assurance surveillance plan should be prepared in conjunction
with the SOW and should specify all work that requires surveillance and the method of
surveillance required. Contracts under the simplified acquisition threshold also require quality
assurance. FAR 46.404 states that when determining the type and extent of quality assurance
under the simplified acquisition threshold, the CO shall consider the “criticality of application of
the supplies or services, the amount of possible losses, and the likelihood of uncontested
replacement of defective work.”

        OIG reviewed 18 services contracts and did not observe any documentation that a quality
assurance surveillance plan had been prepared. For example, OIG reviewed the file for Contract
BBG50-P-11-0009, totaling $99,000 for a contractor’s service to implement an education project
in Africa, and found no evidence of a quality assurance surveillance plan. In reviewing the
invoices for this contract, OIG found that 1) the contractor had been paid on November 23, 2010,
for work that was to be completed from November 15 through November 30, 2010, (i.e., the
contractor was paid prior to fully performing the required work) and 2) the contractor had been
paid the full monthly rate of $16,500, but the invoice was for services performed for only half of
the month. 47 A quality assurance surveillance plan should be used to ensure that work is
complete prior to payment.


46
 FAR 46.201.

47
 The OIG team determined this by reviewing all associated invoices for this contract, which showed that each

month the contractor was paid $16,500 for 30 days’ worth of work.


                                                       50

                                              UNCLASSIFIED
                                        UNCLASSIFIED



       Quality Assurance Inspections

        FAR 46.102(a) requires that agencies ensure that contracts include inspection and other
quality requirements that are determined necessary to protect the Government’s interest.
Agencies may perform inspection both at the source and at the destination of supplies and
services. Additionally, FAR 46.203 states that the extent of contract quality requirements should
be based upon the classification of the contract item, as determined by its technical description
(commercial or military-federal), complexity (complex or noncomplex), and criticality of the
application. An item is considered critical if its failure could jeopardize a vital agency mission.

        OIG found that no documentation existed to evidence that an inspection had been
conducted under quality assurance activities for any of the 34 contracts reviewed, and
specifically, that no quality assurance inspections had been documented for critical items. For
example, the file documentation for Contract BBG50-J-12-0709 totaled $284,661 to purchase
vacuum tubes used to broadcast from transmitting stations. Although the required clauses for
inspection and acceptance were included in the contract terms and conditions, the contract file
did not contain any evidence that quality assurance measures had been developed or performed
in accordance with FAR 46.401. BBG had no reasonable assurance that the tubes had been
delivered or met contract specifications. A failure of the vacuum tubes would prevent broadcasts
from being transmitted, which would jeopardize the BBG mission, and more importantly, raise
the risk of misuse of taxpayer dollars.

       Quality Assurance for Broadcasting Contracts

        FAR 46.201 also states that “the contracting officer shall include in the solicitation and
contract the appropriate quality requirements.” Of 34 contracts OIG reviewed, three contracts
were for broadcasting services. The broadcasting contracts contained lease agreements with the
contractor that allowed BBG to run programming in target countries through that contractor’s
transmission facilities. Each contract included pricing information for the broadcasting station’s
service fee and statements similar to the following:

       The above-stated fee, when applied to the actual number of broadcast hours performed by
       the broadcaster during each billing cycle, shall result in monthly payments being
       proportionately reduced when necessary.

        This statement ensured that the broadcast fee to be paid to the contractor would be
proportionally reduced for failure to broadcast the BBG programs. However, none of the three
broadcasting services contract files contained evidence that quality assurance was performed to
determine service disruption hours. For example, file documentation for Contract BBG50-C-11­
0023 required the broadcaster to maintain accurate records of broadcast times and gave BBG the
option to install a computerized Remote Monitoring System to record the broadcast of BBG
programs. OIG did not find any evidence in the contract file to indicate that BBG had reviewed
the records of broadcast times or had installed the Remote Monitoring System. OIG also noted
that none of the monthly invoices had been reduced for failed transmissions, also signifying a

                                                51

                                        UNCLASSIFIED
                                       UNCLASSIFIED


potential misuse of taxpayer funds. In addition to the three broadcasting contracts, OIG noted a
similar issue with a contract for a lease of a satellite transponder which facilitated video and
audio transmission throughout the world.

No Policies for Quality Assurance

        Quality assurance deficiencies may have occurred for a multitude of reasons, including
insufficient quality assurance policies and procedures. Therefore, COs and those administering
contracts did not have the guidance to implement the appropriate procedures to ensure quality
assurance requirements were being met.

        When supplies and services do not abide by the contractual quality assurance
requirements, the CO has the authority to take action, including rejecting the item or requiring
corrective actions from the contractor. However, appropriate action can only occur if contracting
officials perform adequate quality assurance as is necessary per the acquisition. Without quality
assurance measures, BBG may be paying contractors for broadcasting programs that never aired
or for other goods and services that were not received.

        The lack of sufficient quality assurance steps may result in inadequate contractor
performance, cost overruns, delays in receiving goods and services, and unclear roles and
responsibilities. For example, as previously discussed in this finding, OIG found that, for
Contract BBG50-P-11-0009, had appropriate quality assurance procedures been identified, and
had the BBG developed its method for how it would monitor the contractor’s performance via a
quality assurance surveillance plan, the contractor would not have received payment without
proof of services furnished or prior to the completed work, and would not have been paid an
additional $8,250 for work days not completed.

       Recommendation 22. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop policies and procedures and implementation guidance to
       ensure that contracting officers and contracting officer’s representatives are fully aware
       of the type and extent of quality assurance procedures that should be performed in
       accordance with the Federal Acquisition Regulation and the type of documentation that
       should be maintained in the contract file as supporting evidence of quality assurance.

       Management Response: BBG concurred with the recommendation, stating that it “will
       develop and issue policies, procedures and implementing guidance reflecting the
       requirements of the FAR Part 46 entitled Quality Assurance.” BBG further stated that
       “contracting officers and CORs will be trained to comply with both FAR Part 46 and
       FAR Subpart 4.8 entitled Government Contract Files.” Finally, BBG stated that it had
       implemented a new Satellite Monitoring Policy, in response to OIG’s concern regarding
       quality assurance for broadcasting services contracts.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG developed


                                                52

                                       UNCLASSIFIED
                                 UNCLASSIFIED


policies and procedures and implementation guidance to ensure that COs and CORs are
fully aware of the type and extent of quality assurance procedures required in accordance
with the FAR for all contracts and the type of documentation to be maintained in the
contract file.

Recommendation 23. OIG recommends that the International Broadcasting Bureau,
Office of Contracts, review Contract BBG50-P-11-0009 and determine whether the
contractor was paid an extra $8,250 for work not performed. If this cost is determined
unallowable, the Office of Contracts should seek reimbursement from the contractor.

Management Response: BBG concurred with the recommendation, stating that

       the contractor was required to deliver six equally-priced but undefined
       “units” at $16,500.00 per unit. The contract did not specify that the
       “units” were months (although that may have been what the parties
       intended), nor is it clear what did constitute a “unit” under the contract.
       Although the pricing was based on six units, the contract called for a
       period of performance of November 15, 2010 through April 30, 2011 – a
       period of 5 ½ months (167 days), not six months.

BBG asserts that the contractor in fact delivered six units, or town hall meetings (and
other matters), which is what the BBG paid for, at the total amount of $99,000 ($16,500
per “unit” x 6 units). The BBG concluded, upon review of the contract file, that “there
was no evidence that the contractor over-charged BBG in total for the contract.”
Therefore, BBG would “not seek reimbursement from the contractor.”

OIG Reply: OIG considers this recommendation resolved. However, OIG notes that
upon further review of the contract, our concerns about the ambiguities within the
contract language and the inability to determine the definition of a “unit” within this
contract remain. Specifically, OIG agrees with the BBG that Section B of the contract
listed a quantity of six “units” at a unit price of $16,500, for a total cost of $99,000, and
that the original period of performance was November 15, 2010, through April 30, 2011,
or 5 ½ months. However, OIG further adds that Section C (the SOW) for this contract
listed the following duties to be performed under the contract:
   •	 Manage, direct and compensate an editorial team across Northern Nigeria 

      responsible for 10 stories a month on education issues.

   •	 Organize four [emphasis added] town hall meetings on education across

      Nigeria.

   •	 Arrange and supervise four, two-day training sessions for a total of 60 

      journalists on education issues in advance of the Town Hall Meetings.


OIG is concerned with BBG’s assertion that six “units,” or town hall meetings, were
delivered when the SOW only required four. Therefore, we will only consider closing

                                         53

                                 UNCLASSIFIED
                                       UNCLASSIFIED


       this recommendation when OIG reviews and accepts documentation showing that six
       town hall meetings were delivered.

Contractors Performed Inherently Governmental Functions for the South Sudan Language
Service

       FAR Subpart 7.5 prohibits contractors from performing inherently governmental
functions, such as the awarding or administration of contracts. FAR 2.101 defines an inherently
governmental function as “a function that is so intimately related to the public interest as to
mandate performance by Government employees” and “includes activities that require either the
exercise of discretion in applying Government authority, or the making of value judgments in
making decisions for the Government.” FAR 7.503 lists examples of functions considered to be
inherently governmental or those that should be treated as such, including “awarding contracts,”
“administering contracts,” and “determining whether contract costs are reasonable, allocable, and
allowable.”

       OIG determined that contractors performed inherently governmental functions in
conjunction with the South Sudan language service. Specifically, one contractor was assigned as
a COR and in this capacity reviewed and approved contractor invoices (or timesheets) and
administered contracts. Another contractor entered into a lease agreement on behalf of BBG, and
there was no evidence that the contractor paid the lease and miscellaneous other expenses.

       Specifically, Contract BBG50-P-12-0092, totaling $45,500; and Contract BBG39-A-11­
0553, totaling $70,400, were awarded to individuals to provide nonpersonal services such as
writing, reporting, and hosting for VOA’s South Sudan language service in Juba, South Sudan.
Another nonpersonal services contractor acted as the Authorized Representative of the
Contracting Office for both contracts, which was synonymous with a COR at that time. OIG
found one contract listed the other nonpersonal services contractor as the Authorized
Representative of the Contracting Office and that he had reviewed and approved all of the
contractor invoices or timesheets relating to both BBG50-P-12-0092 and BBG39-A-11-0553. A
program office official stated that because there were no U.S. Government personnel on the
ground in Juba, she had to rely on a contractor to approve and certify contractor invoices. The
program office depended on the contractor’s review and approval of those contractor invoices or
timesheets for other contractors before submitting the contractor invoices for payment. OIG
considers the approval and certification of contractor invoices or timesheets to be “determining
whether contract costs are reasonable, allocable, and allowable” and therefore, an inherently
governmental function. A nonpersonal services contractor may not be assigned as a COR
because the duties of a COR are inherently governmental.

        In addition, while reviewing Contract BBG39-A-11-0553, OIG discovered Contract
BBG50-P-13-0600, a related contract with the same individual, which totaled $16,075 and had
the following description, “Southern Sudan Project Coordinator.” Upon further review, OIG
determined that the file contained an excel spreadsheet that included rent and various



                                               54

                                       UNCLASSIFIED
                                       UNCLASSIFIED


miscellaneous expenses, which totaled $16,075. OIG also identified a document in the file
which stated:

       Dear [Contractor],

       This letter is to confirm the agreement reached between Free Voice and Voice of
       America, whereby VOA will rent office space in Free Voice’s compound in Juba
       from 1 January 2013. VOA will pay Free Voice a monthly rent of $2350 [for 6
       months], which will include office space for VOA staff, as well as use of the
       studio and internet connection.

        OIG determined that these two documents created a lease agreement between the BBG
and Free Voice, although the letter was addressed to a nonpersonal services contractor. In
essence, the contractor had awarded the lease agreement to Free Voice, which is an inherently
governmental function. BBG paid the contractor $16,075 for rent and miscellaneous expenses,
and the contractor, theoretically, would then pay Free Voice in the same amount. However, OIG
determined that this contractor had terminated his relationship with BBG in February 2013, even
though the full 6 months of rent was paid to the contractor on December 21, 2012, in advance of
rent payments for January through June 2013. The program office official acknowledged that
receipts for office rent payment were not required and could provide no documentation that the
$16,075 had actually been used for rent and other miscellaneous expenses. Further, the CO for
this contract stated that he had been unaware that the contractor had entered into a lease
agreement on behalf of VOA. Even though the documents detailing the lease between the
contractor and Free Voice were located in the contract documentation, the CO admitted that he
had not read contract documentation prior to signing the contract and had believed that the
contract was actually for services.

        OIG could not determine with certainty why the contractors were used to perform
inherently governmental functions; however, it could have occurred because of a lack of
oversight by the CO, a lack of training for the COR, and the absence of policies and procedures
over the administration of services contracts. As a result, BBG had no reasonable assurance that
functions were being performed in accordance with Federal regulations or that funds were spent
in accordance with contract terms and conditions. Additionally, OIG identified one contract for
a lease agreement totaling $16,075 that includes unsupported costs and, if unallowed, should be
returned to the U.S. Government.

       Recommendation 24. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, in coordination with Voice of America, English to Africa Language
       Service, develop policies and procedures and implementation guidance to ensure that
       contractors are not performing inherently governmental functions.

       Management Response: BBG concurred with the recommendation, stating that it “shall
       develop policies, procedures and implementation guidance to prevent contractors from
       performing inherently governmental functions.” Specifically, BBG stated that it had

                                               55

                                       UNCLASSIFIED
                                UNCLASSIFIED


begun drafting a policy to implement Federal policy regarding the performance of
inherently governmental and critical functions, and would incorporate this policy into the
BAM “to ensure contractors do not perform inherently governmental functions.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG developed
policies and procedures and implementation guidance to ensure that contractors are not
performing inherently governmental functions.

Recommendation 25. OIG recommends that the International Broadcasting Bureau,
Office of Contracts, in coordination with Voice of America, English to Africa Language
Service, develop policies and procedures and implementation guidance to ensure that
documentation is required for all contractor expenses to provide evidence that the funds
were expended in an appropriate manner.

Management Response: BBG concurred with the recommendation, stating that it “shall
develop policies, procedures, and implementation guidance to ensure that documentation
is required for all contractor expenses so that federal funds are disbursed in an
appropriate manner.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG developed
policies and procedures and implementation guidance to ensure documentation is
required for all contractor expenses.

Recommendation 26. OIG recommends that the International Broadcasting Bureau,
Office of Contracts, determine whether the $16,075 in unsupported costs for Contract
BBG50-P-13-0600 were allowable, and if determined unallowable, recover those costs
from the contractor.

Management Response: BBG concurred with the recommendation, stating that it will
“determine if BBG received the services specified, and whether the appropriate vendor
was paid the appropriate amount for those services.” BBG further stated that if the
payment or any part is determined to be inappropriate, it will “recover the appropriate
amounts from the contractor.”

OIG Reply: Although BBG concurred with the recommendation, OIG considers this
recommendation unresolved because the CO had not yet made a determination on the
allowability of the unsupported costs. This recommendation can be resolved when the
CO makes a determination regarding whether the $16,075 in unsupported costs for
Contract BBG50-P-13-0600 were allowable, and subsequently closed when OIG reviews
and accepts documentation showing the actions taken regarding this contract.




                                        56

                                UNCLASSIFIED
                                       UNCLASSIFIED



No Evidence That Performance Evaluations Were Performed

       FAR 42.1502(a) requires that past performance evaluations be prepared for contracts or
orders with a period of performance, including options, exceeding 1 year and that interim
evaluations be performed as specified by the agency. FAR 42.1501 also requires that the
performance evaluation contain information such as the contractor’s record of conforming to
contract requirements, the contractor’s adherence to contract schedules, and history of reasonable
and cooperative behavior and commitment to customer satisfaction. Additionally, according to
FAR 42.1503, agency procedures for the past performance evaluation system shall generally
provide for input to the evaluations from the technical office, contracting office, and where
appropriate, end users of the product or service.

       OIG determined that BBG had not adequately documented the performance of
contractors. Specifically, 7 out of 34 contracts were above the simplified acquisition threshold,
and none had evidence that performance evaluations had been performed. For example, OIG
reviewed documentation for Contract BBG50-C-11-0072, totaling $3,926,880 for broadcasting
services during the scope of our audit, and included six option years totaling $14,452,247. OIG
found that the CO had not completed a performance evaluation of the contractor for the first two
option years, and OIG did not find evidence that any performance monitoring occurred.

       OIG found a document titled “Contract/Option Year(s) Renewal Evaluation Form,” in
two contract files reviewed as part of our sample; however, this form was a standard template
and did not adequately evaluate the contractor’s performance. The form provided no specific
performance information or rating tool that could be used in determining how the contractor was
performing in comparison to the SOW. Instead, the evaluation consisted of five questions, four
of which required only a “yes” or “no” answer, and a fifth that asked whether the agency wished
to renew the contract. In addition, the form did not allow the CO or other contracting official to
elaborate on the performance of the contractor. Having only yes and no questions does not
explain the actual performance of the contractor in a way useful to other contracting staff.

        OIG recognizes that the lack of appropriate performance evaluations may have occurred
for a number of reasons, including but not limited to, BBG not having internal policies and
procedures for how or to what extent to conduct evaluations of contractors. OIG interviewed
CORs to determine how they provided oversight of contractors and monitored performance. One
COR stated that he held weekly meetings with contractors and had informal one-on-one
meetings every 7–10 weeks. While this is a good practice, OIG found no documentation of such
meetings and no documentation of the contractor’s performance. COs and CORs did not have
adequate guidance for how to conduct performance evaluations, and there was no cohesion
between CON and the program offices regarding how performance should be evaluated or how
past performance evaluations should be considered when making future contracting decisions.

        Performance monitoring can assist COs in determining whether vendors are qualified to
be Government contractors and past performance information can assist COs in future source-
selection processes. Without conducting performance evaluations, BBG may have awarded

                                                57

                                       UNCLASSIFIED
                                       UNCLASSIFIED


contracts to contractors who were not responsible and did not meet the necessary qualifications
to receive Government contracts. The lack of performance evaluations also made BBG
vulnerable to fraud, waste, and abuse in its contracting for supplies and services.

       Recommendation 27. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop policies and procedures and implementation guidance that
       direct program officials regarding the use and extent of performance evaluations,
       including the use of rating tools and clear indicators of performance.

       Management Response: BBG concurred with the recommendation, stating that it “has
       drafted a policy regarding the use of the Contractor Performance Assessment Retrieval
       System (CPARS) for evaluation of contractor performance over the Simplified
       Acquisition Threshold (SAT)” and that “a policy for acquisitions below the [simplified
       acquisition threshold] SAT will be developed.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       policies and procedures and implementation guidance that directs program officials
       regarding the use and extent of performance evaluations, including rating tools and clear
       indicators of performance.

       Recommendation 28. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop policies and procedures and implementation guidance so
       that contracting officers are aware of how to utilize past performance evaluations when
       assessing potential contractors.

       Management Response: BBG concurred with the recommendation, stating that it “will
       develop policies and procedures regarding the use of contractor performance evaluations
       in the award process.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       policies and procedures and implementation guidance regarding the use of past
       performance evaluations when assessing potential contractors.

Finding I. Contracting Officers and Contracting Officer’s Representatives
Did Not Receive Required Training
        OIG determined that BBG COs and CORs had not received mandated training for
maintaining certifications to authorize and administer contracts. Specifically, COs are required
to accumulate 80 continuous learning points every 2 years to maintain their certifications, and
CORs are required to have specific training requirements dependent on the level of COR
certification held. There were likely multiple reasons why COs and CORs had not met or
maintained mandated training requirements, including but not limited to the lack of adequate

                                               58

                                       UNCLASSIFIED
                                              UNCLASSIFIED


policies, procedures, or tracking mechanisms to ensure that training had been completed. As a
result, COs authorized contracts on behalf of the BBG without proper authorization to do so, and
CORs performed contract administration without adequate knowledge of how to effectively
provide contract oversight.

Training for Contracting Officers

         The Federal Acquisition Certification in Contracting (FAC-C) program establishes core
requirements for education, training, and experience for contracting professionals in civilian
agencies. OMB issued a memorandum dated January 20, 2006, 48 outlining requirements for the
FAC-C program. The memorandum states that the Chief Acquisition Officer for each agency
shall establish agency-specific requirements for tying warrant levels to certification levels based
on agency needs. Specifically, the program requires that COs accumulate 80 continuous learning
points every 2 years to maintain their certifications. This requirement ensures that contracting
staff stay current in the laws, regulations, policies, and processes that impact the Federal
contracting environment. BBG had an internal policy requiring training for COs, titled “BBG
Contracting Warrant/Certification System,” which mirrored the FAC-C certification
requirements.

        OIG obtained and reviewed training files for four COs that awarded contracts within our
sample and determined that three had not completed training in accordance with the FAC-C
program and the BBG Contracting Warrant/Certification System. For example, OIG found one
CO’s training file included only one training certificate, which was for a training course that the
CO completed in 1989. The second CO’s file showed that the last completed procurement
training was in 2008. However, this CO received an updated Certificate of Appointment on
October 22, 2010, even though the CO had not completed required training. The third CO’s file
showed that the CO had not completed any training to maintain her warrant within the past 2
years.

         There were likely many reasons why COs had not met training requirements, including
BBG’s failure to adequately track and maintain CO training hours. Although the Office of
Policy within CON maintained training files for each CO, it did not have a system for tracking
their training course completions in order to determine whether COs were deficient in training
requirements. In addition, BBG did not have policies or procedures to establish a course of
action when COs failed to meet training requirements.

        By not ensuring sufficient training for COs, BBG was at risk that COs may award
contracts without sufficient knowledge of the FAR and other Federal contracting requirements.
During interviews with various COs, it was apparent that they often lacked critical knowledge
necessary for awarding and administering contracts and authorizing Federal funds. Until
detailed internal policies and procedures, as well as a system for tracking training, are developed
and implemented, the BBG will have no reasonable assurance that COs are able to award and

48
     OMB Memorandum, “The Federal Acquisition Certification in Contracting Program,” January 20, 2006.

                                                       59

                                              UNCLASSIFIED
                                        UNCLASSIFIED


administer contracts in compliance with laws and regulations, therefore putting the BBG at risk
for fraud, waste, and abuse.

       Recommendation 29. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop and implement a system to track contracting officers’
       training so that pertinent parties can be informed of missing training and resulting expired
       warrants.

       Management Response: BBG concurred with the recommendation, stating that it “has
       developed and implemented a system to track contracting officer’s training.” BBG
       further stated that it has also drafted a new policy that “includes provisions that will make
       it easier for the Agency to track contracting officers’ training and take appropriate action
       when a contracting officer has not completed required training.” BBG plans to finalize
       this policy and incorporate it into the BAM.

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       and implemented a system to track CO training so that appropriate actions can be taken
       when a CO is missing training.

       Recommendation 30. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop policies and procedures, to ensure that contracting officers
       obtain and maintain training requirements for compliance with the Federal Acquisition
       Certification for Contracting Officer program, including a course of action when
       requirements are not met.

       Management Response: BBG concurred with the recommendation, stating that “the
       policies and procedures for the BBG Contracting Officer Warrant System (COWS) have
       been drafted and are being reviewed.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       policies and procedures to ensure that COs obtain and maintain training requirements,
       including a course of action when requirements are not met.

Training for Contracting Officer’s Representatives

        The COR plays a critical role in providing contract oversight and ensuring that
contractors meet contract requirements; therefore, it is important that CORs receive training in
contract administration. FAR 1.602-2(d)(2) requires that CORs receive and maintain
certification in accordance with FAC-COR guidance. The FAC-COR program outlines three
levels of COR certification with varying requirements for training, expertise, and continuous
learning, depending on the types of contracts being managed. In order to receive certification
and perform the functions of a COR, the employee must:

                                                60

                                        UNCLASSIFIED
                                       UNCLASSIFIED

       1. Complete competency-based core training and assignment-specific training.
       2. Complete experience requirements for Level II and III certifications.
       3. Participate in continuous learning to maintain certification.

       CON primarily used Level I CORs, which were generally appropriate for low-risk
contract vehicles such as supply contracts. A Level I COR requires 8 hours of training and no
previous experience in order to be certified. Level I CORs must also obtain eight continuous
learning points every 2 years in order to maintain their FAC-COR certification.

        OIG found that designated CORs did not consistently receive training as required by the
FAR and FAC-COR program. This may have occurred for a number of reasons; one being that
BBG did not have adequate internal policies and procedures to ensure that CORs were meeting
requirements. BBG provided OIG with a copy of its internal COR training documents, including
a COR I training handout dated March 2013 and a COR Level I training PowerPoint dated June
2013. However, OIG was not able to determine whether CORs received continuous learning
points for attending these internal training courses because BBG did not adequately track
training completed by CORs. OIG found that BBG did have a list of active CORs, dated June
13, 2013; however, this list did not specify each COR’s certification level, the continuing
education points or hours earned, or the date the training was completed.

         Without ensuring that CORs were receiving and maintaining required training as outlined
in the FAC-COR guidance, BBG had no reasonable assurance that CORs were prepared and
capable of overseeing contracts. BBG needs a process to track training and policies and
procedures to mandate training requirements for CORs. A lack of training for CORs puts BBG
at risk of inadequate contract oversight, which increases the risk of fraud, waste, and abuse.

       Recommendation 31. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop policies and procedures, including a comprehensive training
       program, to ensure that contracting officer’s representatives obtain and maintain training
       requirements in compliance with the Federal Acquisition Certification for Contracting
       Officer’s Representatives program.

       Management Response: BBG concurred with the recommendation, stating that “the
       policies and procedures for the BBG Contracting Officer Representatives (COR) program
       have been updated” and that “these policies and procedures establish required COR
       training and require CORs to obtain and maintain FAC-COR certification.”

       OIG Reply: OIG considers this recommendation closed. BBG provided OIG with a
       memorandum titled “IX BAM 164 Designation of Contracting Officers’ Representatives
       and Implementation of BBG Federal Acquisition Certification for Contracting Officer’s
       Representatives,” dated November 20, 2013. This memorandum included attachments
       that detailed a comprehensive training curriculum, which was in compliance with FAC­
       COR requirements. OIG considers this sufficient to meet the intent of the
       recommendation.

                                               61

                                       UNCLASSIFIED
                                        UNCLASSIFIED


       Recommendation 32. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop and implement a system to track training for contracting
       officer’s representatives so that pertinent parties can be informed of missing training and
       resulting expired certifications.

       Management Response: BBG concurred with the recommendation, stating that it had
       updated and implemented the BAM, and the updated policy “requires CORs to register
       their training within the Federal Acquisition Institute Training Application System
       (FAITAS), which allows the Agency to monitor each COR’s compliance with training
       and certification requirements.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing BBG’s process for
       ensuring that CORs are registering their training within the Federal Acquisition Institute
       Training Application System and showing how it will monitor each COR’s compliance
       with training and certification requirements within this system.

Finding J. Contract File Maintenance Practices Do Not Comply With the
Federal Acquisition Regulation
        OIG determined that BBG had not adequately maintained documentation in contract files
as required by the FAR. As reported throughout the Audit Results section of the report, based on
a review of 34 BBG contract files, OIG found that none of the contracts included crucial details
of the acquisition. This may have occurred because BBG did not have adequate internal controls
for contract file maintenance. Specifically, BBG did not have internal policies and procedures
regarding contract file requirements, and there was a general lack of knowledge by COs
regarding documentation required to be maintained in contract files. Effective information
management is crucial to maintaining the integrity of the procurement and providing assurance
that the CO performed the acquisition process in compliance with Federal regulations. Failing to
develop and implement policies and procedures for maintaining proper contract files exposed the
BBG to financial risk, particularly where application of contract terms were an issue. In
addition, poor contract file administration impaired the ability of the BBG to take proper and
timely action to protect its interests, increasing the risk of fraud, waste, and abuse.

Required Documentation Not Included in Contract Files

        FAR 4.802(a) states that a contract file “should generally consist of (1) the contracting
office contract file that documents the basis for the acquisition and the award, the assignment of
contract administration (including payment responsibilities), and any subsequent actions taken
by the contracting office; (2) the contract administration office contract file that documents
actions reflecting the basis for and the performance of contract administration responsibilities;
and (3) the paying office contract file that documents actions prerequisite to, substantiating, and
reflecting contract payments.” FAR 4.801 states that the documentation in contract files shall be
sufficient to constitute a complete history of the transaction for the purpose of (1) providing a

                                                62

                                        UNCLASSIFIED
                                            UNCLASSIFIED


complete background as a basis for informed decisions at each step in the acquisition process;
(2) supporting actions taken; (3) providing information for reviews and investigations; and
(4) furnishing essential facts in the event of litigation or congressional inquiries.

        As reported throughout the Audit Results section of the report, OIG reviewed 34 contract
files and found that none of the contract files contained sufficient documentation to support the
acquisition functions performed by the CO. The major deficiencies OIG found included a lack
of the following:

     •   documentation of acquisition planning and market research
     •   documentation that evidenced the evaluation and selection of offers
     •   documentation that evidenced full and open competition was performed
     •   documentation of a JOFOC for sole-source contracts
     •   statement of price reasonableness, when required
     •   determination of contractor responsibility
     •   delegation of contract administration
     •   documentation of quality-assurance procedures
     •   documentation of performance evaluations, when required

Inconsistent and Outdated Policies and Procedures and Lack of Contracting Officer
Knowledge

        There may have been many reasons why COs had not adequately maintained required
documentation in contract files. OIG identified as one of them inconsistent and outdated policies
and procedures for contract file maintenance. For example, the BAM Part IX identified a
detailed listing of documents required for COs to maintain in contract files; however, CON
officials and COs indicated that certain sections of the BAM were no longer used. 49 OIG also
reviewed the contract file documentation requirements within the BAM and found them to be
outdated. For example, the BAM included a requirement to keep a “copy of synopsis to
Commerce Business Daily for announcement of proposed procurements.” The Commerce
Business Daily was the predecessor of FBO and publication ceased on January 4, 2002.

        In addition, OIG concluded that another reason why contract file maintenance
deficiencies existed was COs’ lack of knowledge regarding the documents that must be
maintained in contract files. For example, one CO asked OIG what documentation she should be
placing into contract files. Many other COs stated that they had determined what documentation
to keep in the file by reviewing old contract files.

       Without an accurate history of contract actions within the official contract file, the BBG
was unable to maintain the integrity of the procurement, ensure that contract decisions were
adequately supported, or provide assurance that the CO performed the acquisition process in

49
  Although CON officials and COs indicated that the BAM was no longer used, OIG did not identify and formal
indication that this administrative manual should no longer be considered as an official policy manual.

                                                     63

                                            UNCLASSIFIED
                                        UNCLASSIFIED


compliance with Federal regulations. Further, failing to document all requirements of an
acquisition puts both the BBG and the COs at legal risk. Policies, procedures, and well-trained
COs are necessary to ensure that all aspects of the contract lifecycle are recorded.

       Recommendation 33. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, update policies and procedures and develop implementation
       guidance that mandates the documentation to be included in each type of contract file.

       Management Response: BBG concurred with the recommendation, stating that it “will
       update policies and procedures mandating the documentation to be included in each type
       of contract file.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       policies and procedures and implementation guidance that mandates the documentation to
       be included in each type of contract file.

       Recommendation 34. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, develop and implement policies and procedures to periodically
       perform quality control reviews of official contract files to determine compliance with
       internal guidance and the Federal Acquisition Regulation.

       Management Response: BBG concurred with the recommendation, stating that it “will
       develop policies and procedures to periodically perform quality control reviews of
       official contract files to determine compliance with internal guidance and the FAR.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has developed
       and implemented policies and procedures to periodically perform quality control reviews
       of official contract files to determine compliance.

       Recommendation 35. OIG recommends that the International Broadcasting Bureau,
       Office of Contracts, update its training curriculum to ensure that contracting officers and
       other responsible contracting officials are periodically trained on the required contents for
       the official contract file.

       Management Response: BBG concurred with the recommendation, stating that it will
       update its training curriculum “to ensure that contracting officers and other responsible
       contracting officials are periodically trained on the required contents for the official
       contract file.”

       OIG Reply: OIG considers this recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation showing that BBG has updated its



                                                64

                                        UNCLASSIFIED
                                               UNCLASSIFIED


         training curriculum and administered a course covering required contents for the official
         contract file.

Finding K. Contracting Officers Exceeded Delegated Authority
        OIG identified two instances in which COs authorized contracts above their warrant
authority. 50 This may have occurred, among other reasons, because the COs who entered into
the contracts had no oversight from CON and because there were no internal controls to prevent
the COs from signing above their warrant levels. As a result, the COs created unauthorized
commitments, and BBG must ratify both contract actions in accordance with FAR
Subpart 1.602-3.

Federal Regulations Regarding Contracting Authority

        FAR Subpart 1.602-1(a) states, “Contracting officers have authority to enter into,
administer, or terminate contracts and make related determinations and findings. Contracting
officers may bind the Government only to the extent of the authority delegated them.
Contracting officers shall receive from the appointing authority clear instructions in writing
regarding the limits of their authority.” An unauthorized commitment occurs when a
Government representative enters into an agreement for which he or she lacks the authority to do
so. As a result, the contract must be ratified, which entails the act of approving an unauthorized
commitment by an official who has the authority to do so, as long as certain conditions are met.

Contracting Officers Exceeding Delegated Authority

        From our sample of 34 contracts, OIG identified two contracts in which the COs
exceeded their warrant authority. For example, OIG reviewed Contract BBG28-F-11-0031,
totaling $190,686 for audio-visual equipment. OIG found that the CO’s warrant authority stated,
“Level I – Contracting Authority, Limited to Simplified Acquisition Not To Exceed $100,000,”
which was less than the cost of the contract. OIG also reviewed Contract BBG50-J-12-0709,
totaling $284,661 for vacuum tubes used to broadcast to transmitting stations. OIG obtained the
“BBG Domestic Warrants” listing from CON and found that the warrant amount for the CO who
had awarded this contract was $150,000, resulting in the contract amount far exceeding the
amount of the CO’s delegated authority. Per the CO, she was the only person within CON to
have a requisite knowledge base of the vacuum tubes, so she performed the acquisition.

       According to program office officials, one reason that this occurred was because the CO
who had signed Contract BBG28-F-11-0031 (now retired) was embedded within VOA and did
not report to any supervisors in CON or to the SPE. Upon further inquiry, OIG found that other
COs residing within program offices and the OCB were provided with little, if any, oversight by
CON. In addition, BBG COs were able to exceed their delegated authority because there were
50
  A warrant is defined as a document that confers authority or justifies an act; within BBG, the SPE delegates
contracting authority through warrants, which authorize the CO to enter into certain contracts by types or dollar
amounts.

                                                         65

                                               UNCLASSIFIED
                                        UNCLASSIFIED


no internal controls to prevent them from doing so. For example, other Federal agencies
implement system controls that do not allow COs to authorize contracts unless they have the
appropriate authority.

        As a result of the COs exceeding their warrant authorities, the COs created unauthorized
commitments. Although supplies and services for both contracts were provided to and accepted
by the Government, BBG must assess whether these unauthorized commitments can be ratified
using the authority in FAR 1.602-3. If so, both contracts must be ratified by the SPE because the
contract values exceeded the warrant levels of the COs who originally signed the contracts. If
the contracts do not meet all the requirements in FAR 1.602-3(c), and are therefore declared
nonratifiable commitments, then BBG must obtain legal advice to determine a resolution.

       Recommendation 36. OIG recommends that the International Broadcasting Bureau, 

       Office of Contracts, assess whether the unauthorized commitments related to Contract

       Nos. BBG28-F-11-0031 and BBG50-J-12-0709 can be processed using the ratification 

       authority in Federal Acquisition Regulation 1.602-3, and if so, ratify the contracts. If the

       contracts cannot be ratified, legal advice must be obtained to determine a resolution.


       Management Response: BBG concurred with the recommendation, stating that

       Contract Nos. BBG28-F-11-0031 and BBG50-J-12-0709 “will be processed for

       ratification using the ratification authority in the FAR.”


       OIG Reply: OIG considers this recommendation resolved. This recommendation can be

       closed when OIG reviews and accepts documentation showing that BBG has ratified

       Contracts BBG28-F-11-0031 and BBG50-J-12-0709.

       Recommendation 37. OIG recommends that the International Broadcasting Bureau, 

       Office of Contracts, develop policies and procedures and appropriate internal controls to 

       ensure that contracting officers cannot sign above their warrant levels.


       Management Response: BBG concurred with the recommendation, stating that its

       internal policy “reminding contracting officers about adherence to their warrant levels

       has been drafted and is being reviewed. The Acting SPE will ensure that internal controls

       are in place and will ensure that each CO is aware of dollar limitations on their

       contracting warrant.” BBG further stated that a “CO who signs above his/her warrant

       level may have his/her contract warrant revoked or suspended.”


       OIG Reply: OIG considers this recommendation resolved. This recommendation can be

       closed when OIG reviews and accepts documentation showing the finalization of its

       internal policy reminding COs about adherence to their warrant levels, and the specific 

       internal control mechanisms the Acting SPE will ensure are in place to ensure that COs

       cannot sign above their warrant levels.


       Recommendation 38. OIG recommends that the Director of Global Operations develop 

       and implement an updated reporting structure for contracting officers that are embedded 


                                                66

                                        UNCLASSIFIED
                                UNCLASSIFIED


in program offices to ensure that all contracting officers are provided with proper
oversight by the Office of Contracts.

Management Response: BBG concurred with the recommendation, stating that it “will
update the reporting structure for contracting officers who are currently embedded in
program offices to ensure proper oversight by the Office of Contracts.”

OIG Reply: OIG considers this recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation showing that BBG has updated the
reporting structure for COs that are embedded in program offices and that the COs are
properly overseen by CON.




                                        67

                                UNCLASSIFIED
                                        UNCLASSIFIED



                                 List of Recommendations

Recommendation 1. OIG recommends that the Board of Governors develop an action plan to
implement and track a restructuring of the acquisition process within the International
Broadcasting Bureau to ensure that all procurements comply with Federal and agency
procurement policies. The action plan must have measurable goals and milestones.

Recommendation 2. OIG recommends that the Board of Governors develop and implement
enforcement mechanisms to ensure accountability for compliance with the action plan developed
in response to Recommendation 1. This must include regular monitoring and evaluation of the
acquisition function and compliance with the action plan.

Recommendation 3. OIG recommends that the Director of Global Operations adhere to the
conditions stated in 22 U.S. Code 6206 for hiring personal services contractors; specifically, a
determination of resources needed should be made; the Director should approve the employment
of each personal services contractor; and contract length, including options, should not exceed 2
years.

Recommendation 4. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, update its training curriculum to ensure that contracting officers and other responsible
contracting officials are appropriately trained to award and administer personal services contracts
in accordance with the statutory requirements as defined by the Personal Services Contracting
Pilot Program.

Recommendation 5. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, in coordination with the Office of the Chief Financial Officer, develop and implement
policies and procedures to ensure that funds are available at the beginning of the period of
performance for each contract, which should include the tracking of contract period of
performance and the maintenance of appropriate documentation within the contract file. If funds
are not available for the entire term of a contract because of a continuing resolution, a subject to
availability clause should be included in the terms and conditions of the contract, per the Federal
Acquisition Regulation.

Recommendation 6. OIG recommends that the International Broadcasting Bureau develop and
implement fund control regulations, obtain approval from the Office of Management and Budget
for the fund control regulations, and post the fund control regulations on its Web site, as required
by Office of Management and Budget Circular A-11.

Recommendation 7. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and implementation guidance for conducting
acquisition planning, in accordance with the Federal Acquisition Regulation. Specifically,
criteria and thresholds should be established to dictate when a written acquisition plan is needed
and guidance should establish what types of documentation should be maintained in the contract
file.

                                                68

                                        UNCLASSIFIED
                                        UNCLASSIFIED


Recommendation 8. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and implementation guidance for conducting market
research, in accordance with the Federal Acquisition Regulation. Specifically, criteria should be
established to dictate the type and extent of market research to be performed for each
procurement action and what types of documentation should be maintained in the contract file.

Recommendation 9. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, cease the use of quarterly sources sought announcements for awarding contracts.

Recommendation 10. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop internal policies and procedures and implementation guidance to ensure
compliance with the Competition in Contracting Act and Federal Acquisition Regulation
regarding the publication of contract actions.

Recommendation 11. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop updated internal policies and procedures and implementation guidance to
ensure that all offers are evaluated for each proposed contract action and adequately documented
in the contract file.

Recommendation 12. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop internal policies and procedures and implementation guidance to ensure that
justifications for other than full and open competition are adequately documented and only
utilized in accordance with Federal Acquisition Regulation guidance.

Recommendation 13. OIG recommends that the Director of Global Operations provide
guidance to all offices within the International Broadcasting Bureau to explain the role of the
Office of Contracts and the requirement for all acquisitions to comply with the Competition in
Contract Act and follow the Federal Acquisition Regulation, and to reinforce the authority of the
Senior Procurement Executive.

Recommendation 14. OIG recommends that the International Broadcasting Bureau hold
comprehensive training to ensure that all employees involved in the acquisition process are
aware of the Competition in Contracting Act and Federal Acquisition Regulation as it relates to
competition, as well as the implications of noncompliance.

Recommendation 15. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop comprehensive policies and procedures and implementation guidance that
directs contracting officers how to determine and document whether contract prices are fair and
reasonable.

Recommendation 16. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, update its training curriculum to ensure that contracting officers and other responsible
contracting officials are appropriately trained to conduct and document contract price
determinations.

                                                69

                                        UNCLASSIFIED
                                         UNCLASSIFIED


Recommendation 17. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, review each of the contracts notated in Table 1 of Appendix A of the audit report to
determine whether the contract price was fair and reasonable in accordance with Federal
regulations. For each contract in which the price was determined not to be fair and reasonable,
assess whether the contract can be processed using the ratification authority in Federal
Acquisition Regulation 1.602-3, and if so, ratify the contract. If the contract cannot be ratified,
legal advice must be obtained to determine a resolution.

Recommendation 18. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop and implement policies and procedures to provide guidance to contracting
officers on the type and extent of contractor responsibility determinations to be made for each
award and the types of documentation that should be maintained in the contract file.

Recommendation 19. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, update its policies and procedures for contractor requirements for the Data Universal
Numbering System and registration within the Central Contracting Registry to ensure that these
procedures are in accordance with the Federal Acquisition Regulation.

Recommendation 20. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, update its training curriculum to ensure that contracting officers and other responsible
contracting officials are appropriately trained to conduct and document responsibility
determinations and to only allow exemptions under clearly defined circumstances in accordance
with the Federal Acquisition Regulation or Office of Federal Procurement Policy guidance.

Recommendation 21. OIG recommends that International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and implementation guidance, which ensure that
contracting officer’s representatives (COR) are designated for every contract, and that this
documentation clearly defines the COR’s roles and responsibilities and is maintained in the
contract file.

Recommendation 22. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and implementation guidance to ensure that
contracting officers and contracting officer’s representatives are fully aware of the type and
extent of quality assurance procedures that should be performed in accordance with the Federal
Acquisition Regulation and the type of documentation that should be maintained in the contract
file as supporting evidence of quality assurance.

Recommendation 23. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, review Contract BBG50-P-11-0009 and determine whether the contractor was paid an
extra $8,250 for work not performed. If this cost is determined unallowable, the Office of
Contracts should seek reimbursement from the contractor.

Recommendation 24. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, in coordination with Voice of America, English to Africa Language Service, develop

                                                 70

                                         UNCLASSIFIED
                                        UNCLASSIFIED


policies and procedures and implementation guidance to ensure that contractors are not
performing inherently governmental functions.

Recommendation 25. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, in coordination with Voice of America, English to Africa Language Service, develop
policies and procedures and implementation guidance to ensure that documentation is required
for all contractor expenses to provide evidence that the funds were expended in an appropriate
manner.

Recommendation 26. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, determine whether the $16,075 in unsupported costs for Contract BBG50-P-13-0600
were allowable, and if determined unallowable, recover those costs from the contractor.

Recommendation 27. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and implementation guidance that direct program
officials regarding the use and extent of performance evaluations, including the use of rating
tools and clear indicators of performance.

Recommendation 28. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and implementation guidance so that contracting
officers are aware of how to utilize past performance evaluations when assessing potential
contractors.

Recommendation 29. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop and implement a system to track contracting officers’ training so that
pertinent parties can be informed of missing training and resulting expired warrants.

Recommendation 30. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures, to ensure that contracting officers obtain and
maintain training requirements for compliance with the Federal Acquisition Certification for
Contracting Officer program, including a course of action when requirements are not met.

Recommendation 31. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures, including a comprehensive training program, to
ensure that contracting officer’s representatives obtain and maintain training requirements in
compliance with the Federal Acquisition Certification for Contracting Officer’s Representatives
program.

Recommendation 32. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop and implement a system to track training for contracting officer’s
representatives so that pertinent parties can be informed of missing training and resulting expired
certifications.




                                                71

                                        UNCLASSIFIED
                                         UNCLASSIFIED


Recommendation 33. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, update policies and procedures and develop implementation guidance that mandates
the documentation to be included in each type of contract file.

Recommendation 34. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop and implement policies and procedures to periodically perform quality
control reviews of official contract files to determine compliance with internal guidance and the
Federal Acquisition Regulation.

Recommendation 35. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, update its training curriculum to ensure that contracting officers and other responsible
contracting officials are periodically trained on the required contents for the official contract file.

Recommendation 36. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, assess whether the unauthorized commitments related to Contract Nos. BBG28-F-11­
0031 and BBG50-J-12-0709 can be processed using the ratification authority in Federal
Acquisition Regulation 1.602-3, and if so, ratify the contracts. If the contracts cannot be ratified,
legal advice must be obtained to determine a resolution.

Recommendation 37. OIG recommends that the International Broadcasting Bureau, Office of
Contracts, develop policies and procedures and appropriate internal controls to ensure that
contracting officers cannot sign above their warrant levels.

Recommendation 38. OIG recommends that the Director of Global Operations develop and
implement an updated reporting structure for contracting officers that are embedded in program
offices to ensure that all contracting officers are provided with proper oversight by the Office of
Contracts.




                                                  72

                                         UNCLASSIFIED
                                               UNCLASSIFIED



                                                                                                  Appendix A
                                        Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to evaluate whether the Broadcasting Board of
Governors (BBG) had adequate acquisition policies and procedures, and to assess the efficacy of
those policies and procedures. OIG sought to determine whether the BBG was in compliance
with Federal regulations for conducting selected acquisition functions, including contract
oversight, in support of the BBG mission.

       OIG conducted fieldwork for this performance audit from June 2013 to December 2013
at BBG’s Office of Contracts (CON). OIG conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that OIG plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for its
findings and conclusions based on its audit objective. OIG believes that the evidence obtained
provides a reasonable basis for its findings and conclusions based on the audit objective.

        To obtain background for this audit, OIG researched and reviewed Federal laws and
regulations, as well as internal BBG policies and procedures related to acquisitions. Specifically,
OIG reviewed the Federal Acquisition Regulation (FAR), Office of Management and Budget
(OMB) policies, 1 and the International Broadcasting Act of 1994. In addition, OIG reviewed
BBG policies and procedures including the Broadcasting Board of Governors Acquisition
Regulation, the Broadcasting Administrative Manual, the Contracting for Talent & Other
Professional Services Handbook, and various acquisition-related policy memorandums.

        To gain an understanding of the pre-solicitation, pre-award, and contract administration
phases of BBG’s acquisitions, OIG interviewed officials within the BBG and reviewed and
analyzed contract documentation. Specifically, OIG interviewed officials within CON, including
the Senior Procurement Executive, Branch Chiefs, including the Branch Chief from the Policy
and Procurement Analysis Branch, contracting officers, and contracting specialists. OIG also
interviewed contracting officer’s representatives (COR) and other officials from BBG program
offices who were involved with the administration and oversight of contracts and contractors. In
addition, OIG interviewed officials from the Office of the Chief Financial Officer (CFO) to
understand the coordination and communication between CON and this Office. Finally, OIG
interviewed senior officials within the International Broadcasting Bureau (IBB), including the
Office of General Counsel, to obtain additional insights regarding the acquisition process and
BBG’s internal oversight procedures.




1
 OMB Circular A-11, Preparation, Submission, and Execution of the Budget; OMB Policy Memorandum,

Revisions to the Federal Acquisition Certification for Contracting Officer’s Representatives, September 6, 2011; and

OMB Policy Memorandum, The Federal Acquisition Certification in Contracting Program, January 20, 2006.


                                                        73

                                               UNCLASSIFIED
                                              UNCLASSIFIED



Prior Reports

From 2011 to 2013, OIG issued four audit and inspection reports regarding the BBG that had
procurement-related findings:
    •	 A September 2013 OIG inspection report, Inspection of Voice of America Latin America
       Division (ISP-IB-13-49), found that CON did not have original contract files in one
       central location and did not maintain a comprehensive list of current contracts; CORs
       were involved in too many steps of contract administration; and administrative officers
       followed up on payments instead of contracting officers.
    •	 A February 2012 OIG audit report, Report on Survey of Broadcasting Board of
       Governors Suspension and Debarment Process (AUD-CG-12-24), determined that the
       BBG did not have sufficiently detailed suspension and debarment policies and procedures
       and that the BBG was unable to provide data from which to select a sample of contracts
       and grants to review.
    •	 A September 2011 OIG inspection report, International Broadcasting Bureaus Germany
       Transmitting Station (ISP-IB-11-66), found a lack of internal controls and inadequate
       separation of duties between requestors who suggested a vendor and also conducted
       procurement competitions.
    •	 A June 2011 OIG inspection report, Inspection of International Bureau Botswana
       Transmitting Station (ISP-IB-11-52A), identified issues with inadequate training on
       procurements and incorrect procedures for using blanket purchase agreements.

Use of Computer-Processed Data
        OIG used computer-generated data obtained from BBG to ascertain the population of
acquisitions performed by BBG. However, after conducting tests of the data, we determined that
the data was not reliable. To assess the reliability of computer-processed data, OIG interviewed
officials knowledgeable about the data, reviewed existing documentation related to the data
sources, and performed some tracing to source documents. BBG officials agreed that the data
might not have been reliable and could not explain inconsistencies identified by OIG. We
obtained access to BBG’s accounting system, Momentum, in order to verify information found
in the contract files, and also found data inconsistencies. OIG also performed a reconciliation of
data provided by BBG to information on awards obtained via a query of USASpending.gov. 2
OIG found significant differences between the two data sources. Specifically, there were more
contracts reported in USASpending.gov than in the listing provided by BBG. This gave rise to
the concern that the data provided by BBG was not accurate or complete. Although the universe
of contracts provided by BBG was not reliable, OIG believes that the data from the contracts
selected for review was sufficient to support the findings and the evidence obtained provides a
reasonable basis for determining the deficiencies identified in the report. Specifically, the

2
 USASpending.gov is the official Government Web site created by OMB to provide the public with a searchable
database of Federal awards. BBG stated that it provides data, which is garnered from the BBG, to the administrator
of the Web site periodically.

                                                        74

                                              UNCLASSIFIED
                                             UNCLASSIFIED


deficiencies identified were supported by documentary and/or testimonial evidence provided by
BBG officials.

Work Related to Internal Controls

        To assess the adequacy of internal controls related to policies, procedures, and processes
used for BBG acquisitions and compliance with Federal regulations, OIG took the following
actions:
    •	 obtained and reviewed the policies, procedures, and processes for BBG acquisitions
    •	 interviewed BBG personnel responsible for BBG acquisitions
    •	 reviewed contract files for significant deficiencies and noncompliance with Federal
       regulations

        OIG identified a number of significant internal control weaknesses, which are
summarized the Audit Results section of the report. BBG lacks numerous policies and
procedures for awarding and administering contracts in accordance with Federal regulations,
which increases the potential for fraud, waste, and abuse. Additionally, as a result of our
analysis of contract files and identification of severe internal control deficiencies, several
contracts within our sample were referred to the OIG’s Office of Investigations for further
review.

Detailed Sampling Methodology

       OIG’s sampling objective was to determine whether BBG awarded contracts in
accordance with the FAR and provided appropriate oversight of contracts. OIG developed a
sample that appropriately represented the total population of domestically awarded contracts by
the BBG, but excluded contracts awarded by the BBG’s three grantees.

Identification of the Universe

        OIG requested that BBG provide a list of all domestic contracts awarded during fiscal
years 2011 and 2012. However, OIG found that BBG did not maintain a list of contracts.
Instead, BBG was able to provide a list of contract actions 3 with associated contract numbers
from its accounting system, which included 27,468 contract actions totaling $213,145,026
funded by BBG during fiscal years 2011 and 2012. According to BBG officials, this listing was
created via a query from its accounting system using coding data; however, BBG officials could
not answer questions concerning the data pull, such as specifics on the coding data. For
example, each transaction within the accounting system had a specific contract number in the
format of BBG50-D-11-XXXX. The two digits after BBG are supposed to represent the entity
from which the contract originated, such as Voice of America (VOA) or the Office of Cuba

3
  Contract actions within Momentum represent obligations, modifications, and de-obligations. One contract
typically has multiple contract actions.

                                                       75

                                             UNCLASSIFIED
                                               UNCLASSIFIED


Broadcasting (OCB). OIG found multiple two-digit codes that could not be accounted for, and
inconsistencies within the use of these codes. Because this coding data was used to create the
query, OIG had significant concerns regarding the completeness and accuracy of the listing
provided by the BBG. In addition, other data within the listing could not be defined by BBG.
For example, one column heading, “Bureau,” had acronyms for BBG office names, but some of
these could not be defined by BBG officials.

        Due to additional concerns regarding the BBG listing of contract actions, OIG performed
a second data reliability test. Specifically, we obtained and reviewed a listing of contracts
awarded by BBG from USASpending.gov for the same time period to assess the reliability of the
project universe used for the sample design, and noted that the data did not match. For fiscal
year 2011, there was a 3 percent difference in total dollar amount; however, for fiscal year 2012,
USASpending.gov had approximately $153 million in positive contract actions, while the listing
provided by BBG had $107 million; a 43 percent difference. The Chief of the Policy and
Procurement Analysis Branch within CON stated that this disparity was due to the fact that
USASpending.gov included overseas contract actions rather than domestic only. However,
during initial meetings, multiple BBG officials contradicted that statement by stating that
procurement data entry into USASpending.gov was incomplete and behind schedule.

         Based on inconsistencies with the data provided by the BBG, in conjunction with the data
reliability tests performed, OIG had significant concerns regarding the completeness of the
listing provided by BBG. Nevertheless, OIG determined that contracts could be selected for
review based on the data provided and the contracts selected represent a sample that could be
used to support our findings and recommendations.

Selection of Contracts

        OIG selected domestic contracts awarded by BBG during fiscal years 2011 and 2012 for
review via judgmental sampling. Specifically, the team judgmentally selected 34 contracts for
this audit; 22 firm-fixed-price 4 or indefinite-delivery indefinite-quantity 5 contracts and 12
blanket purchase agreements, 6 all of which we refer to as “contracts” throughout the report. 7 To
obtain a broad sample selection, OIG used the following criteria in selecting the 34 contracts:
type of contract, contract purpose, dollar amount of award, risk level of vendor, allotment name,
and program office. OIG selected a range of contract values throughout many IBB program
offices for a variety of purposes, and included high-risk vendors, such as foreign contractors or
those previously suspended or debarred. The 34 selected contracts are shown in Table 1

4
  As defined by FAR 16.202-1, “a firm-fixed-price contract provides for a price that is not subject to any adjustment
on the basis of the contractor’s cost experience in performing the contract.”
5
  FAR 16.501-2 states that an indefinite-delivery indefinite-quantity contract is one that may be used to acquire
supplies or services when exact times and exact quantities of future deliveries are not known at the time of the
contract award.
6
  Two contracts were removed from the original selection because once obtaining documentation, OIG discovered
that they were awarded in fiscal year 2010 and were therefore outside of the scope of the audit.
7
  OIG requested and reviewed all documentation relating to each sample selection, which in some instances included
multiple contracts with the same vendor.

                                                         76

                                               UNCLASSIFIED
                                                         UNCLASSIFIED


Table 1. Sample Selection of BBG Contracts
                   Vendor Name                   Contract Numbera                  Program Office and Description                   Amountb

   1   Globecast America, Inc.                   BBG50-C-11-0072             TSI Satellites                                           $3,926,880
                                                                    c
   2   Teleradiokompania Radio-ERA LLC           BBG50-C-11-0023             IBB - RFE/RL Leases                                         940,008
                                                                    c
   3   CGI Federal, Inc.                         BBG50-F-12-0340             CFO                                                         402,350
                                                                   c
   4   Gallup Organization                       BBG50-J-12-0706             Strategic Plan and Performance                              321,621
                                                                   c
   5   Thales Components Corporation             BBG50-J-12-0709             TSI Procurement                                             284,661
   6   Christie Digital Systems USA, Inc.        BBG28-F-11-0031             TSI - TV Maintenance                                        190,686
                                                                    c
   7   DTR/H&D Joint Venture                     BBG50-D-09-0131             TSI Engineering Operations                                  161,990
                                                                    c
   8   Christopher Irwin Design                  BBG39-A-11-0487             VOA - Worldwide English                                     123,600
                                                                    c
   9   Distill, Inc.                             BBG50-C-12-0012             IBB - Office of New Media                                   120,000
  10   Sterling Computers Corporation            BBG50-F-12-0326             TSI Technology                                              116,137
                                                                    c
  11   Sani Malumfashi                           BBG50-P-11-0009             VOA – Mozambique                                             99,000
                                                                    c
  12   Gueye Khalilou                            BBG50-P-11-0278             VOA - Democratic Republic of Congo                           96,000
                                                                    c
  13   Dewi Jeffrey                              BBG50-D-10-0016             VOA - East Asia and Pacific Division                         85,200
                                                                    c
  14   Elizabeth Pfotzer                         BBG39-A-12-0190             VOA Central News Division                                    81,250
                                                                    c
  15   Amina Kamal Khan                          BBG50-D-11-0043             VOA - South Asia Division                                    72,520
                                                                    c
  16   Michael Onyiego                           BBG39-A-11-0553             VOA - Southern Sudan                                         70,400
                                                                    c
  17   Momin Khan Wahedi                         BBG39-A-10-0541             VOA - Afghan Star                                            63,600
                                                                    c
  18   Emil Guliyev                              BBG28-A-12-0031             VOA - Near East and Central Asia                             60,030
                                                                    c
  19   Jose Alpizar                              BBG45-A-11-0101             OCB - Broadcasting to Cuba                                   54,300
  20   Drexel Heritage Furniture                 BBG50-F-12-0190             TSI Proceeds of Sale                                         50,454
                                                                    c
  21   Sussan Bahriyekta                         BBG50-A-12-0006             IBB - Office of Policy                                       50,350
                                                                    c
  22   Charlton Doki                             BBG50-P-12-0092             VOA - South Sudan                                            45,500
                                                                    c
  23   Howard Garden Suites                      BBG50-P-12-0303             VOA - East Asia and Pacific Division                         45,000
                                                                   c
  24   Verizon Wireless                          BBG39-J-11-0095             VOA - Persian News Network                                   44,927
                                                                    c
  25   Mariama Crandall                          BBG50-A-11-0600             IBB - Office of Marketing and Program Placement              42,000
                                                                    c
  26   Marvellous Nyahuye                        BBG50-A-11-0300             VOA - Africa Division                                        40,039
                                                                    c
  27   Annick Nsabimana                          BBG50-A-12-0341             VOA - Burundi                                                35,000
                                                                    c
  28   Windstar Technologies, Inc.               BBG50-P-11-0560             CFO                                                          35,000
                                                                    c
  29   AudioNow                                  BBG50-C-11-0027             IBB - Latin America Networking                               30,800
                                                                    c
  30   Citizen Global                            BBG50-P-11-0068             BBG                                                          25,000
                                                                    c
  31   Garba Suleiman                            BBG50-P-11-0290             Hausa Health                                                 20,000
                                                                    c
  32   Potter Oil and Tire, Inc.                 BBG38-F-11-0002             TSI - Greenville Transmitting Station                        15,339
                                                                    c
  33   Narval Mbila Ndambo                       BBG50-A-12-0338             VOA - Kinshasa Citizens Journalists                          13,050
                                                                    c
  34   JKarpiy Andriy                            BBG50-C-11-0050             VOA Leases - Headquarters                                    12,000
                                     TOTAL FUNDING FOR 34 BBG CONTRACTS                                                             $7,774,692
Source: OIG generated based on data provided by BBG.

a
  “Contract Number” represents the number assigned to the individual contract with the vendor.

b
  “Amount” represents the amount of funding obligated for the selected contract only; many vendors had multiple contracts with BBG during the 

same time period. 

c
  Per review of contract file, OIG determined that no fair and reasonable price determination was made.





                                                                        77

                                                         UNCLASSIFIED
                                             UNCLASSIFIED

       In addition to the contracts selected above, OIG selected an additional five personal
services contracts (PSC) in order to determine what differences, if any, there were between
personal and nonpersonal services contracts (in conjunction with Finding B and Finding C).
BBG provided OIG with a list of 43 PSCs as of March 20, 2013, within the Office of Strategy
and Development and three VOA divisions—Africa, South Asia, and the Persian News Network.
OIG judgmentally selected one additional PSC contract from each program office, and two from
South Asia because 30 of the 43 PSCs were in the South Asia Division. The five additional
contracts selected are shown in Table 2.

Table 2. Additional Sample Selection of Personal Services Contracts
              Vendor Name                      Contract Number             Program Office           Amount
 1   Locked-on Communications, LLC        BBG50-D-12-0035                 VOA - Persian                $104,000
 2   Muhammad Ilyas Khan                  BBG50-D-12-0044                 VOA - South Asia               71,965
 3   Nafisa Hoodbhoy                      BBG50-A-12-0536                 VOA - South Asia               37,200
 4   Ngathie Diop                         BBGCONBC001                     OSD - West Africa             32,500*
 5   Christopher Gande                    BBG51-A-13-00001                VOA - Africa                  20,547*
                        TOTAL FUNDING FOR 5 PSC CONTRACTS                                               $266,212
Source: OIG generated based on data provided by BBG.
* OIG determined obligation amount using information from contract file because the information was not located
in the contract listing provided by the BBG.




                                                      78

                                             UNCLASSIFIED
                                                UNCLASSIFIED



                                                                                                      Appendix B
                                     Analysis of Services Contracts

        In order to determine whether contracts were properly labeled as nonpersonal services
contracts, the Office of Inspector General (OIG) applied the six criteria identified in Federal
Acquisition Regulation (FAR) 37.104(d) to each sample contract; performed a comparison
between the contracts labeled “personal services contract” (PSC) and those labeled “nonpersonal
services contract;” and interviewed agency officials, to include contracting officers (CO),
contracting officer’s representatives (COR), and other program officials. OIG also took into
account whether “contractor personnel were subject to the relatively continuous supervision and
control of a Government employee,” and found that 14 of the 16 contractors were subject to
continuous supervision from Broadcasting Board of Governors (BBG) employees or other
nonpersonal services contractors who were performing inherently governmental functions, and
ultimately that an employee/employer relationship existed. 1 See Table 1 below for the results of
our analysis. Please note that the “OIG Analysis” column includes only key factors in our
determination.

Table 1. Analysis of Contracts Labeled as Nonpersonal Services Contracts
                               Contract
           Contract #                              Position                          OIG Analysis
                                Label
                              Nonpersonal     Editor/Stringer        Contractors performed a combination of these
    1   BBG39-A-11-0553       services        Coordinator            similar job functions as listed in the column to
                              Nonpersonal                            the left, all of which were identical to duties
    2   BBG50-P-12-0092       services        Host/Reporter          performed by full-time BBG employees and
                              Nonpersonal                            PSCs with similar positions.
    3   BBG50-A-12-0341       services        Reporter/Editor
                              Nonpersonal     Producer/Writer/       In addition, these services were provided at
    4   BBG50-A-11-0600       services        Researcher/Reporter    BBG sites, both domestic and abroad. The
                              Nonpersonal                            contractors were under continuous Government
    5   BBG28-A-12-0031       services        Journalist             supervision and provided these services for
                              Nonpersonal                            multiple years. Tools, such as computers,
    6   BBG50-A-12-0006       services        Producer               software, and cell phones were provided to the
                              Nonpersonal     Producer/Writer/       contractors by BBG, and all services were in
    7   BBG50-A-12-0338       services        Researcher/Reporter    direct support of the BBG mission. OIG spoke
    8   BBG50-D-10-0016       Not indicated   Journalist             with COs and CORs related to some of these
                                                                     contracts, none of whom could elaborate on a
                                                                     difference in treatment between personal and
                                              Producer/Writer/       nonpersonal services contractors, or full-time
    9   BBG39-A-10-0541       Not indicated   Researcher/Reporter    employees.




1
    We could not determine whether the remaining two contracts were personal or nonpersonal in nature.

                                                           79

                                                UNCLASSIFIED
                                       UNCLASSIFIED


Table 1. Analysis of Contracts Labeled as Nonpersonal Services Contracts (continued)

                            Contract
         Contract #                          Position                  OIG Analysis
                             Label
                                                              Contractor coordinated the Nigerian
                                                              Education Project, which included
                                                              managing, directing and compensating a
                                                              team of reporters in Nigeria and setting up
                                                              all aspects of town hall meetings. He had
                                        Coordinator of        provided this service under the direct
                         Nonpersonal    Nigeria Education     supervision of a BBG employee since
10   BBG50-P-11-0009     services       Project               2007.
                                                              Contractor coordinated the Democratic
                                                              Republic of Congo (DRC) French to Africa
                                                              Service, which included providing
                                                              deliverables (edited stories) for the DRC
                                                              Health Radio Program. This included
                                                              “maintaining a network of stringers,”
                                                              which means providing payment to and
                                                              overseeing overseas reporters. He had
                                        Coordinator for       provided these services under the direct
                         Nonpersonal    DRC HIV/AIDS          supervision of a BBG employee since
11   BBG50-P-11-0278     services       Program               2011.
                                                              Contractor was charged with writing and
                                                              developing specific language exercises and
                                                              activities for a BBG website. The COR
                                                              stated that he was the contractor’s
                         Nonpersonal                          supervisor and that he provided constant
12   BBG39-A-11-0487     services       E-learning Producer   supervision since 2010.
                                                              Contractor was charged with web and
                                                              graphic design, which included working
                                                              with the Central News Desk editors and
                                                              writers to adapt news stories to an online
                                                              format. She had provided these types of
                                                              services under the supervision of BBG
                                                              since 2000. The COR stated the only
                                                              difference in supervision between this
                                                              contractor and his full-time employees with
                         Nonpersonal    Web/Graphic           the same job title was that the contractor
13   BBG39-A-12-0190     services       Designer              used a sign-in sheet.
                                                              Contractor was charged with providing
                                                              general studio operations services, which
                                                              included working in conjunction with the
                                                              program technical director to create a final
                                                              recorded or live-to-air product ready for
                                                              broadcast. He had provided these services
                         Nonpersonal    Lead Audio            under the direct supervision of a BBG
14   BBG45-A-11-0101     services       Technician            employee since 2005.




                                               80

                                       UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix C

       Federal and Broadcasting Board of Governors Policies Governing 

                   Obligating or Expending Federal Funds

       There are specific Federal and Broadcasting Board of Governors (BBG) policies and
procedures that govern the appropriate use of Federal Funds.

The United States Code and Government Accountability Office Guidance

       The Anti-Deficiency Act (ADA) prohibits Federal agencies from obligating or expending
Federal funds in advance or in excess of an appropriation, apportionment, or certain
administrative subdivisions, such as allotments, of those funds. The relevant sections of the
U.S. Code are as follows:

       31 U.S.C. 1517(a): An officer or employee of the United States Government
       or of the District of Columbia government may not make or authorize an
       expenditure or obligation exceeding—(1) an apportionment; or (2) the amount
       permitted by regulations prescribed under section 1514 (a) of this title.

       31 U.S.C. 1514(a): The official having administrative control of an
       appropriation available to the legislative branch, the judicial branch, the United
       States International Trade Commission, or the District of Columbia government,
       and, subject to the approval of the President, the head of each executive agency
       (except the Commission) shall prescribe by regulation a system of administrative
       control not inconsistent with accounting procedures prescribed under law. The
       system shall be designed to—(1) restrict obligations or expenditures from each
       appropriation to the amount of apportionments or reapportionments of the
       appropriation; and (2) enable the official or the head of the executive agency to
       fix responsibility for an obligation or expenditure exceeding an apportionment or
       reapportionment.

        The Government Accountability Office’s (GAO) Principles of Federal Appropriations
Law, Third Edition, Volume II, GAO-06-382SP, February 2006 (Red Book), provides an
interpretation of the above cited clauses, as follows:

       Subsection 1517(a)(2) makes it a violation to obligate or expend in excess of an
       administrative subdivision of an apportionment to the extent provided in the agency’s
       fund control regulations prescribed under section 1514. The importance of 31 U.S.C. §
       1514 becomes much clearer when it is read in conjunction with 31 U.S.C. § 1517(a)(2).
       Section 1514 does not prescribe the level of fiscal responsibility for violations below the
       apportionment level. It merely recommends that the agency set the level at the highest
       practical point and suggests no more than one subdivision below the apportionment level.
       The agency thus, under the statute, has a measure of discretion. If it chooses to elevate

                                               81

                                       UNCLASSIFIED
                                        UNCLASSIFIED

       overobligations or overexpenditures of lower-tier subdivisions to the level of
       Antideficiency Act violations, it is free to do so in its fund control regulations.

       At this point, it is important to return to OMB Circular No. A-11. Since agency fund
       control regulations must be approved by OMB (id. § 150.7), OMB has a role in
       determining what levels of administrative subdivision should constitute Antideficiency
       Act violations. Under OMB Circular No. A-11, § 145.2, overobligation or
       overexpenditure of an allotment or suballotment are always violations [emphasis
       added]. Overobligation or overexpenditure of other administrative subdivisions are
       violations only if and to the extent specified in the agency’s fund control regulations. See
       31 U.S.C. §§ 1514(a), 1517(a)(2).

        Based on the above excerpts from GAO’s Red Book, taken in conjunction with 31 U.S.C.
1517(a), 31 U.S.C. 1514(a), and relevant sections of the Office of Management and Budget
Circular No. A-11, overobligation, which would include obligation in the advance of an
allotment or suballotment, is in fact a violation of the ADA, with additional limitations dictated
by the agency’s fund control regulations.

BBG’s Fund Control Regulation

        OIG was provided with the Broadcasting Administrative Manual (BAM), Title 7,
Part 100, Accounting Principles and Standards,” as the BBG’s fund control regulation. The
BAM, Title 7, Section 104, “Fund Control,” states that the control of appropriations is exercised
by allotment authorities, which are delegations of authority made by the Director, Office of
Budget, to issue allotments. The section defines the fund control principles applicable to the
agency, including the following:

       •	 Advices of Allotment are issued by the Director, Office of Budget, in conformance
          with approved financial plans, and within the amounts and limitations of
          apportionments or reapportionments made by the Office of Management and Budget.
       •	 The Director, Office of Budget, is responsible for assuring with respect to all funds,
          including trust funds, that:
              o	 appropriate accounting is performed to provide for accurate disclosure of the
                 status of all appropriations and other forms of obligational authority in terms
                 of apportionments, allotment authority, allotments, operating allowances,
                 obligations, and disbursements;
              o	 allotments do not exceed apportionments and reapportionments; and
              o	 amounts recorded and reported as obligations are valid obligations as defined
                 by law in accordance with Section 1311 of the Supplemental Appropriations
                 Act of 1955.
       •	 Each official who receives an allotment of funds is responsible for:
              o restricting obligations to the amounts available in such allotments;


                                                 82

                                        UNCLASSIFIED
                                           UNCLASSIFIED

                 o	 identifying an obligation with the applicable appropriation or fund and
                    allotment at the time it is incurred;
                 o	 certifying funds are available before the applicable obligation documents are
                    released and recorded;
                 o	 authorizing payments when goods are received or constructive receipt occurs
                    (e.g., issuance of a receiving report or notice that services had been received);
                    and
                 o	 reviewing unliquidated obligations and deobligating them when appropriate.
          •	 Obligations incurred or disbursements made in excess of the amount permitted by an
             allotment constitutes a violation of the Anti-Deficiency Act as amended.

Federal Acquisition Regulation on Contract Funding

       Contracting prior to funding availability is also addressed in Federal Acquisition
Regulation (FAR) Part 32, Contract Financing, which states, “No officer or employee of the
Government may create or authorize an obligation in excess of the funds available, or in advance
of appropriations (Anti-Deficiency Act, 31 U.S.C. 1341), unless otherwise authorized by law.
Before executing any contract, the contracting officer shall—
          a)	 Obtain written assurance from responsible fiscal authority that adequate funds are
              available, or
          b)	 Expressly condition the contract upon availability of funds in accordance
              with 32.703-2.” 1

        This section of the FAR provides specific instructions for when funding is not secured at
the beginning of a fiscal year, such as those fiscal years when the U.S. Government continued to
operate under continuing resolutions. Specifically, FAR 32.703-2 states, “The contracting
officer may initiate a contract action properly chargeable to funds of the new fiscal year before
these funds are available, provided that the contract includes the clause at 52.232-18, Availability
of Funds.” The clause at 52.232-18 states:

          Funds are not presently available for this contract. The Government’s obligation under
          this contract is contingent upon the availability of appropriated funds from which
          payment for contract purposes can be made. No legal liability on the part of the
          Government for any payment may arise until funds are made available to the Contracting
          Officer for this contract and until the Contractor receives notice of such availability, to be
          confirmed in writing by the Contracting Officer.




1
    FAR 32.702.

                                                   83

                                           UNCLASSIFIED
              UNCLASSIFIED



                                                 Appendix D
Office of Inspector General Outline for Action




                     84

              UNCLASSIFIED
UNCLASSIFIED





     85


UNCLASSIFIED

UNCLASSIFIED





     86


UNCLASSIFIED

UNCLASSIFIED





     87


UNCLASSIFIED

                         UNCLASSIFIED



                                                                   Appendix E
Broadcasting Board of Governors First Response to Outline for Action




                                88

                         UNCLASSIFIED
                          UNCLASSIFIED



                                                                   Appendix F
Broadcasting Board of Governors Second Response to Outline for Action




                                 89

                          UNCLASSIFIED
UNCLASSIFIED





     90


UNCLASSIFIED

UNCLASSIFIED





     91


UNCLASSIFIED

                         UNCLASSIFIED



                                                                   Appendix G
Broadcasting Board of Governors Thir d Response to Outline for Action




                                92

                         UNCLASSIFIED
UNCLASSIFIED





     93


UNCLASSIFIED

UNCLASSIFIED





     94


UNCLASSIFIED

UNCLASSIFIED





     95


UNCLASSIFIED

UNCLASSIFIED





     96


UNCLASSIFIED

UNCLASSIFIED





     97


UNCLASSIFIED

                          UNCLASSIFIED



                                                                   Appendix H
Broadcasting Board of Governo rs Fourth Response to Outline for Action




                                 98

                          UNCLASSIFIED
UNCLASSIFIED





     99


UNCLASSIFIED

                    UNCLASSIFIED



                                                            Appendix I
Broadcasting Board of Governors R esponse to Draft Report




                          100

                    UNCLASSIFIED
UNCLASSIFIED





     101


UNCLASSIFIED

UNCLASSIFIED





     102


UNCLASSIFIED

UNCLASSIFIED





     103


UNCLASSIFIED

UNCLASSIFIED





     104


UNCLASSIFIED

UNCLASSIFIED





     105


UNCLASSIFIED

UNCLASSIFIED





     106


UNCLASSIFIED

UNCLASSIFIED





     107


UNCLASSIFIED

UNCLASSIFIED





     108


UNCLASSIFIED

UNCLASSIFIED





     109


UNCLASSIFIED

UNCLASSIFIED





     110


UNCLASSIFIED

UNCLASSIFIED





     111


UNCLASSIFIED

UNCLASSIFIED





     112


UNCLASSIFIED

UNCLASSIFIED





     113


UNCLASSIFIED

UNCLASSIFIED





     114


UNCLASSIFIED

UNCLASSIFIED





     115


UNCLASSIFIED

                                     UNCLASSIFIED



Major Contributors to This Report

Melinda Perez, Director
Division of Contracts and Grants
Office of Audits

Kathleen Sedney, Team Leader
Division of Contracts and Grants
Office of Audits

Stephanie Wake, Management Analyst
Division of Contracts and Grants
Office of Audits

Katherine Clay, Management Analyst
Division of Contracts and Grants
Office of Audits




                                          116

                                     UNCLASSIFIED
       UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:



         202-647-3320

         800-409-9926

      oighotline@state.gov

          oig.state.gov


   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

     Arlington, VA 22219





       UNCLASSIFIED

